<html>
<title> - STRONG OVERSIGHT AT THE DEPARTMENT OF HOMELAND SECURITY: A PREDICATE TO GOOD GOVERNMENT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                   STRONG OVERSIGHT AT THE DEPARTMENT
                   OF HOMELAND SECURITY: A PREDICATE
                           TO GOOD GOVERNMENT

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2007

                               __________

                           Serial No. 110-29

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
43-565                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 20402-0001


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON-LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             CHRISTOPHER P. CARNEY, Pennsylvania, Chairman

PETER A. DeFAZIO, Oregon             MIKE ROGERS, Alabama
YVETTE D. CLARKE, New York           TOM DAVIS, Virginia
ED PERLMUTTER, Colorado              MICHAEL T. McCAUL, Texas
VACANCY                              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                    Jeff Greene, Director & Counsel

                         Brian Turbyfill, Clerk

                    Michael Russell, Senior Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Rogers, a Representative in Congress From the State 
  of Alabama, and Ranking Member, Subcommittee on Management, 
  Investigations, and Oversight..................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     3
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State of Colorado..........................................    19

                               Witnesses

Mr. Norman J. Rabkin, Managing Director, GAO's Homeland Security 
  and Justice Team, Government Accountability Office:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Paul A. Schneider, Under Secretary for Management, 
  Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12

                               Appendixes

Appendix I:  Key GAO Audit and Access Authorities................    31
Appendix II:  Letter from Hon. Paul A. Schneider.................    35
Appendix III:  Additional Questions and Responses................
  Hon. Paul A Schneider Responses................................    33


STRONG OVERSIGHT AT THE DEPARTMENT OF HOMELAND SECURITY: A PREDICATE TO 
                            GOOD GOVERNMENT

                              ----------                              


                       Wednesday, April 25, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                 Subcommittee on Management, Investigations
                                             and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10 a.m., in room 
210, Cannon House Office Building, Hon. Christopher Carney 
[chairman of the subcommittee] presiding.
    Present: Representatives Carney, Thompson, Perlmutter, and 
Rogers.
    Mr. Carney. [Presiding.] The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
``Strong Oversight at the Department of Homeland Security: A 
Predicate to Good Government.''
    This hearing should not have to take place. Some problems 
are to be expected when a massive new agency is created--
integration difficulties, difficulty defining a cogent mission, 
even morale challenges. None of these is good, but at least 
they are understandable.
    A persistent and pervasive resistance to legitimate 
oversight, however, is not. Today, we are going to hear from 
the GAO about their difficulties obtaining information from 
DHS, but the problems they have been describing are much 
broader. DHS's own Office of the Inspector General has said 
that they have been faced with delays in obtaining information 
that at times effectively amounted to a roadblock.
    Senator Lieberman said that during his committee's 
Hurricane Katrina investigation last year, the department often 
took an adversarial posture and ultimately produced only a 
small fraction of the documents and witnesses that reasonably 
could have been expected. Senator Lieberman went so far as to 
request that then-Chairman Collins subpoena the department.
    We ourselves see continuing failure to submit required 
reports to Congress. Indeed, just a few weeks ago, Chairman 
Thompson and Ranking Member King jointly sent a letter to 
Secretary Chertoff detailing the most recent failings. And this 
month, the private Mercatus Center found that the department's 
annual performance report ranked 22nd out of 24 agencies in 
terms of communicating information to the public.
    This is completely unacceptable, and it cannot continue. 
DHS is a troubled agency. Oversight will only and can only make 
it better. When a house has a bad foundation, you don't fix it 
by refusing to let the inspector into the basement. You fix it 
by letting the professionals examine it, assessing the problem, 
cutting out the rot, and rebuilding stronger.
    Since my staff began investigating this issue, Inspector 
General Skinner has reported that the department has done a 180 
and has been cooperating with his fine investigators and his 
staff. I am very pleased to hear this, and I hope it continues 
and it spreads. GAO, the Congress and the public need to see 
the same improvement.
    It also needs to last. While I am glad that the IG is 
seeing the improvement, I hope it doesn't just become a 
temporary thing. I am worried that the department might just be 
playing nice because we have been focusing on the issue, and 
that as soon as our interest is perceived to wane, the 
department will revert to business as usual. I certainly hope 
that is not the case.
    Undersecretary Schneider, I am glad you are here today. You 
impressed me as a straightshooter both when we met in my office 
and later when you testified before my subcommittee. I don't 
think that you are afraid of oversight. I am hopeful that you 
can chart a better course for the department.
    So before I close, I am going to make a personal request to 
you, sir. When you get back to the department, please tell your 
staff or supervisors or counterparts, even the secretary 
himself, when you get the chance, that our concern over this 
issue will not wane. Please tell them that I have directed my 
staff to inquire regularly of the GAO and the Office of the 
Inspector General about whether they are getting appropriate 
cooperation from the department. Please tell them that I will 
be asking Inspector General Skinner to come to me directly if 
he has any renewed problems. I am asking you to ensure that 
every corner of the department gets the message that if there 
is a problem, I will hear about it, which of course means you 
will hear about it.
    It is my sincere hope that I never have to convene another 
hearing on this subject, but we will be watching. If these 
problems persist or recur, I will not hesitate to bring you and 
many more people from the department back here to revisit the 
issue. If you think we are going to be talking tough today, 
just wait until the gavel comes down on that hearing.
    Thank you. I look forward to hearing your testimony.
    I now turn it over to the ranking member from Alabama.
    Mr. Rogers. Thank you, Chairman Carney, for convening this 
hearing.
    I want to thank the witnesses for taking the time to be 
here with us. We welcome back Undersecretary Schneider and Mr. 
Rabkin, who have appeared before this committee in the past.
    At the outset, I would like to note for the record that 
this is one of the first, if not the first, hearing held in 
this committee in the 110th Congress which included bipartisan 
briefing materials. The bipartisan nature of this hearing 
underscores the importance of Congress and the inspector 
general getting the information they need to fulfill their 
oversight responsibilities.
    Rigorous oversight of Federal agencies improves their 
operations, saves taxpayer dollars, and holds them accountable 
to the American people. Such oversight is especially important 
for the Department of Homeland Security, which is the third-
largest department in the Federal Government, with an annual 
budget of approximately $40 billion. Oversight of this 
department is also critical because of its mission to prevent 
terrorist attacks and respond to natural disasters.
    Today, we examine the difficulties the comptroller general 
of the United States and the DHS inspector general are having 
obtaining information from the department. In February, 2007, 
both of these officials testified before our full committee and 
the Appropriations Subcommittee on Homeland Security and raised 
this issue. As we explore this issue, it is important to 
remember that DHS is just over 4 years through a complex merger 
of 22 agencies. Experts have testified that mergers much less 
complex have taken 5 to 7 years to complete.
    In addition, DHS handles matters at all levels of security 
classification, as well as information covered by the Privacy 
Act. Therefore, careful scrutiny of the documents and 
information is not only expected, but demanded by DHS before 
such material is released. Since February, the subcommittee has 
been advised that DHS has made progress to improve access to 
information. In addition, DHS has a new acting general counsel 
and a relatively new undersecretary for management. Both 
officials are personally committed to improving the process and 
taking steps internally to fix any problems.
    Today, we will hear from our witnesses about that progress 
and what additional steps need to be taken to ensure that GAO 
and the inspector general have timely access to the information 
needed.
    I yield back.
    Mr. Carney. Thank you, Mr. Rogers.
    The chair now recognizes the chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman and Ranking 
Member. I am happy to be here for this hearing. I welcome our 
witnesses. There is no question that sunshine is real important 
for our government. I am concerned that people who talk about 
the fact that they welcome oversight sometimes put blinders on 
from the request standpoint. The GAO, as well as IG, are 
instruments of Congress. They look at organizations and 
institutions, and obviously when those requests are made by 
members of Congress, we expect the job to be performed.
    I would not like to see the department stonewall any of 
these agencies anymore. The public has a right to know. We are 
spending their money and therefore in return we deserve 
answers. So I look forward to the hearing, Mr. Chairman, and I 
yield back the balance of my time.
    Mr. Carney. Thank you, Mr. Chairman.
    Other members of the subcommittee are reminded that under 
committee rules, opening statements may be submitted for the 
record.
    I welcome the witnesses. The first witness is Mr. Norm 
Rabkin, the managing director of the Homeland Security and 
Justice team at the Government Accountability Office. Mr. 
Rabkin manages GAO's reviews of issues related to homeland 
security, Federal law enforcement agencies, including the FBI 
and DEA, the Federal judiciary, and Federal funds provided to 
state and local law enforcement agencies. Mr. Rabkin was 
selected into the Senior Executive Service in 1989 and received 
GAO's distinguished service award in 1999 and 2002.
    Our second witness is Hon. Paul Schneider, undersecretary 
for management at the Department of Homeland Security. Prior to 
joining the department earlier this year, Undersecretary 
Schneider was a defense and aerospace consultant for three-and-
a-half years, and before that he was a civil servant for 38 
years, including serving as senior acquisitions executive of 
the National Security Agency from October 2002 to September 
2003, and more than four years as principal deputy assistant 
secretary of the Navy for research, development and 
acquisition.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask each witness to summarize his 
statement for five minutes, beginning with Mr. Rabkin.

    STATEMENT OF NORMAN RABKIN, MANAGING DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Rabkin. Thank you, Mr. Chairman, Ranking Member Rogers, 
Chairman Thompson. It is nice to be here this morning. I am 
pleased to be here to discuss our access to information at DHS.
    Almost every engagement we have undertaken at DHS has been 
at the specific request of the chairman or ranking member of a 
congressional committee or subcommittee, or has been mandated 
through the legislative process. We have been very active at 
DHS as the department deals with issues of major significance 
to the American public. It was a major merger, as you 
mentioned, of 22 legacy agencies when it was created in 2003. 
It receives enormous annual appropriations, and it also has 
inherited a set of management and programmatic challenges from 
its legacy agencies.
    Since DHS began operations, we have provided major analyses 
of the department's plans and programs for transportation 
security, immigration enforcement and benefits, Coast Guard 
operations, and emergency management. We have also reported on 
DHS's management functions, such as human capital, financial 
management, and information technology.
    We have processes for obtaining information from 
departments and agencies across the Federal Government that 
work well. These processes were developed in accordance with 
generally accepted government auditing standards. We have 
shared them with every department and agency in what call our 
``agency protocols''--a book like this.
    We notify agency officials each time we begin an audit. We 
offer to meet with them to discuss our objectives, scope, our 
methodology, and our information needs. We are available to 
provide them with status reports on our work and our 
preliminary findings.
    At all departments and agencies, we expect and usually 
receive excellent cooperation. Overall, our experience at DHS 
has not been as smooth. DHS's process involves multiple layers 
of review by component and department-level liaisons and 
attorneys about whether to provide us the requested 
information. We have to submit each request for documents to 
the component liaison, rather than directly to program 
officials, even if we have already met with those officials.
    The liaisons often refer our requests to attorneys, either 
at the component or departmental level, sometimes both. The 
result is that we often wait for months for information that in 
many cases could be provided immediately. In some cases, DHS 
does not furnish information until our review is nearly 
finished, greatly impeding our ability to provide our clients 
with a full and timely perspective on the program under review.
    As we have understood these cases, DHS's concerns have 
often involved whether they consider the information we have 
requested to be deliberative or pre-decisional, even though 
that is not a basis for denying us access. At other times, DHS 
does not share with us the rationale for not promptly providing 
the requested material.
    We have occasionally worked with DHS management to 
establish a cooperative process, for example, reviewing 
sensitive documents at a particular agency location. We have 
agreed to these types of accommodations for accessing 
information under certain circumstances because we believe that 
doing so allows us not only to maintain a productive working 
relationship with the department, but also to meet the needs of 
our congressional clients in a timely manner without 
compromising our auditing standards.
    We recognize that the department has legitimate interests 
in protecting certain types of sensitive information from 
public disclosure. We share that interest as well, and follow 
strict security guidelines in handling such information. We 
similarly recognize that agency officials need to make 
judgments with respect to the manner and the processes they use 
in response to our information requests. However, to date 
because of the processes and the manner in which DHS officials 
have interpreted and implemented them, we have often not been 
able to complete our work in a timely manner.
    We appreciate the efforts of senior DHS managers, including 
our official liaison, to listen to our concerns and to try to 
make the process more responsive. I especially appreciate 
Undersecretary Schneider's openness and willingness to take on 
this challenge.
    I look forward to working with him and will keep this 
committee and our other clients in Congress informed of the 
progress we make.
    This completes my statement, Mr. Chairman. I will be glad 
to answer questions.
    [The statement of Mr. Rabkin follows:]

                  Prepared Statement of Norman Rabkin

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here to discuss the subject of access by the 
Government Accountability Office to information at the Department of 
Homeland Security (DHS). My statement will provide information on the 
scope of our work, our protocols regarding how we normally get access 
to agency information, DHS processes for responding to our requests, 
access issues we have encountered at DHS, and, finally, steps we have 
taken to address these issues.

Summary
    GAO's mission is to support Congress in meeting its constitutional 
responsibilities and to help improve the performance and ensure the 
accountability of the federal government for the benefit of the 
American people. Since DHS began operations in 2003, we have provided 
major analyses of the department's plans and programs for 
transportation security, immigration, Coast Guard, and emergency 
management. We have also reported on DHS's management functions such as 
human capital, financial management, and information technology.
    We have processes for obtaining information from departments and 
agencies across the federal government that work well. DHS's adopted 
processes do not work as smoothly. DHS's processes have impeded our 
efforts to carry out our mission by delaying access to documents that 
we require to assess the department's operations. This process involves 
multiple layers of review by department- and component-level liaisons 
and attorneys regarding whether to provide us the requested 
information.
    We have occasionally worked with DHS management to establish a 
cooperative process--or example, reviewing sensitive documents at a 
particular agency location. We have agreed to these types of 
accommodations for accessing information under certain circumstances 
because we believe that doing so allows us not only to maintain a 
productive working relationship with the department but also to meet 
the needs of our congressional requesters in a timely manner. Further, 
such a relationship enables us to present the progress and challenges 
of the department in a clear and impartial manner, so that we can meet 
our shared objectives of improving our nation's security preparedness.
    We recognize that the department has legitimate interests in 
protecting certain types of sensitive information from public 
disclosure. We share that interest as well and follow strict security 
guidelines in handling such information. We similarly recognize that 
agency officials will need to make judgments with respect to the manner 
and the processes they use in response to our information requests. 
However, to date, because of the processes adopted to make these 
judgments, GAO has often not been able to do its work in a timely 
manner. We have been able to eventually obtain information and to 
answer audit questions, but the delays we have experienced at DHS have 
impeded our ability to conduct audit work efficiently and to provide 
timely information to congressional clients.

GAO Performs a Broad Range of Work for Congress
    GAO has broad statutory authority under title 31 of the United 
States Code to audit and evaluate agency financial transactions, 
programs, and activities.\1\ To carry out these audit and evaluation 
authorities, GAO has a broad statutory right of access to agency 
records. Using the authority granted under title 31, we perform a range 
of work to support Congress that, among other things, includes the 
following:
---------------------------------------------------------------------------
    \1\ See appendix I for more information on key GAO audit and access 
authorities.
---------------------------------------------------------------------------
        <bullet> Evaluations of federal programs, policies, operations, 
        and performance:
                <bullet> For example, evaluations of transportation 
                security programs related to passenger-screening 
                operations at airports, our work to assess enforcement 
                of immigration laws, and our work on the U.S. Coast 
                Guard's Deepwater acquisition to replace its aging 
                fleet.
        <bullet> Management and financial audits to determine whether 
        public funds are being spent efficiently, effectively, and in 
        accordance with applicable laws:
                <bullet> For example, DHS's appropriations acts for 
                fiscal years 2002 through 2006 have mandated that we 
                review expenditure plans for the U.S. Visitor and 
                Immigrant Status Indicator Technology (U.S.VISIT) 
                program.
        <bullet> Investigations to assess whether illegal or improper 
        activities may have occurred:
                <bullet> For example, we investigated the Federal 
                Emergency Management Agency's (FEMA) Individuals and 
                Households Program to determine the vulnerability of 
                the program to fraud and abuse in the wake of 
                Hurricanes Katrina and Rita.
        <bullet> Constructive engagements in which we work proactively 
        with agencies, when appropriate, to help guide their efforts 
        toward transformation and achieving positive results:
                <bullet> For example, we have worked to establish such 
                an arrangement with the Transportation Security 
                Administration (TSA) on its design and implementation 
                of the Secure Flight Program for passenger pre-
                screening for domestic flights whereby we could review 
                documents on system development as they were being 
                formulated and provide TSA with our preliminary 
                observations for its consideration. Congress mandated 
                TSA certify that the design and implementation of the 
                program would meet 10 specific criteria. Congress also 
                mandated that we review and comment on TSA's 
                certification. TSA's certification has not yet 
                occurred.

Auditing Standards and Our Protocols Address Accessing Information
    We carry out most of our work in accordance with generally accepted 
government auditing standards.\2\ Our analysts and financial auditors 
are responsible for planning, conducting, and reporting their work in a 
timely manner without internal or external impairments. These standards 
require that analysts and financial auditors promptly obtain 
sufficient, competent, and relevant evidence to provide a reasonable 
basis for any related findings and conclusions. Therefore, prompt 
access to all records and other information associated with these 
activities is needed for the effective and efficient performance of our 
work.
---------------------------------------------------------------------------
    \2\ GAO, Government Auditing Standards, 2003 Revision, GAO-03-673G 
(Washington, D.C.; June 2003).
---------------------------------------------------------------------------
    Our work involves different collection approaches to meet the 
evidence requirements of generally accepted government auditing 
standards. Such evidence falls into four categories:
        <bullet> physical (the results of direct inspection or 
        observation);
        <bullet> documentary (information created by and for an agency, 
        such as letters, memorandums, contracts, management and 
        accounting records, and other documents in various formats, 
        including electronic databases);
        <bullet> testimonial (the results of face-to-face, telephone, 
        or written inquiries, interviews, and questionnaires); and
        <bullet> analytical (developed by or for GAO through 
        computations, data comparisons, and other analyses).
    We have promulgated protocols describing how we will interact with 
the agencies we audit.\3\ We expect that agencies will promptly comply 
with our requests for all categories of needed information. We also 
expect that we will receive full and timely access to agency officials 
who have stewardship over the requested records; to agency employees 
responsible for the programs, issues, events, operations, and other 
factors covered by such records; and to contractor personnel supporting 
such programs, issues, events, and operations. In addition, we expect 
that we will have timely access to an agency's facilities and other 
relevant locations while trying to minimize interruptions to an 
agency's operations when conducting work related to requests for 
information.
---------------------------------------------------------------------------
    \3\ GAO, GAO Agency Protocols, GAO-05-35G (Washington, D.C.; Oct. 
21, 2004).
---------------------------------------------------------------------------
    We provide an appropriate level of security to information obtained 
during the course of our work. We are statutorily required to maintain 
the same level of confidentiality of information as is required of the 
agency from which it is received, and we take very seriously our 
obligation to safeguard the wide range of sensitive information we 
routinely receive. For example, we ensure that GAO employees have 
appropriate security clearances to access information. We also have 
well-established security policies and procedures.
    Timely access to information, facilities, and other relevant 
locations is in the best interests of both GAO and the agencies. We 
need to efficiently use the time available to complete our work to 
minimize the impact on the agency being reviewed and to meet the time 
frames of our congressional clients. Therefore, we expect that an 
agency's leadership and internal procedures will recognize the 
importance of and support prompt responses to our requests for 
information. When we believe that delays in obtaining requested access 
significantly impede our work, we contact the agency's leadership for 
resolution and notify our congressional clients, as appropriate.

DHS Has Implemented Burdensome Processes for Working with GAO
    Unlike those of many other executive agencies, DHS's processes for 
working with us includes extensive coordination among program 
officials, liaisons, and attorneys at the departmental and component 
levels and centralized control for all incoming GAO requests for 
information and outgoing documents. In an April 2004 directive on GAO 
relations, DHS established a department liaison to manage its 
relationship with us. In addition, DHS has a GAO coordinator within all 
of its components and, within the DHS General Counsel Office, an 
Assistant General Counsel for General Law who provides advice on GAO 
relations. According to the directive, the department liaison (1) 
receives and coordinates all GAO notifications of new work, (2) 
participates in all entrance conferences, and (3) notifies the 
Assistant General Counsel of new work to obtain participation of 
counsel. The directive requires the Assistant General Counsel to 
participate in all entrance meetings to ensure that the scope of any 
request is clear and finite, and that mutual obligations between DHS 
and GAO are met. The component coordinator handles all matters 
involving GAO for the component, generally participates in GAO entrance 
meetings, and seeks advice of component's counsel, as appropriate.
    The following figure illustrates the coordination of information 
among DHS officials described above when we make a request for 
information. Typically when we begin an engagement, we send a letter to 
the department liaison to notify DHS that we are starting a new 
engagement and we request an entrance meeting to discuss the work. 
During the course of our review, we provide written requests for 
meetings and documents to component coordinators using a DHS-prescribed 
form. The component coordinators then forward our requests to program 
officials and consult with component counsel, who may consult with the 
Assistant General Counsel.

               Figure 1. DHS Process for Working with GAO



       GAO requests for interviews
                     and documents
              <d-arrow>  <u-arrow>
 DHS departmental liaison<l-arrow>       <r-arrow>DHS Assistant General
              <d-arrow>  <u-arrow>                                     Counsel
                                                            <u-d-arrow>
                                  Component coordinator<l-arro<r-arrow>Component counsel
              <d-arrow>  <u-arrow>
                 Program Officials


    In a memo that transmitted the above directive to senior managers 
in DHS components, the then-Under Secretary for Management emphasized 
the importance of a positive working relationship between the two 
agencies. The memo stated that failure to meet or brief GAO staffs in a 
timely manner, as well as being viewed as nonresponsive to GAO document 
requests, could result in tense and acrimonious interactions. The Under 
Secretary also reminded senior officials that prompt and professional 
discharge of their responsibilities to GAO requests could affect both 
DHS's funding and restrictions attached to that funding.

    GAO Has Experienced Difficulties Accessing DHS Information
    In testimony before this committee and the House Committee on 
Appropriations, Subcommittee on Homeland Security in February 2007, we 
stated that DHS has not made its management or operational decisions 
transparent enough to allow Congress to be sure that the department is 
effectively, efficiently, and economically using its billions of 
dollars of annual funding.\4\ We also noted that our work for Congress 
to assess DHS's operations has been significantly hampered by long 
delays in obtaining access to program documents and officials. We 
emphasized that for Congress, GAO, and others to independently assess 
the department's efforts, DHS would need to become more transparent and 
minimize recurring delays in providing access to information on its 
programs and operations.
---------------------------------------------------------------------------
    \4\ GAO, Homeland Security: Management and Programmatic Challenges 
Facing the Department of Homeland Security, GAO-07-398T (Washington, 
D.C.: Feb. 6, 2007); and GAO, Homeland Security: Management and 
Programmatic Challenges Facing the Department of Homeland Security, 
GAO-07-452T (Washington, D.C.: Feb. 7, 2007).
---------------------------------------------------------------------------
    At most federal agencies and in some cases within DHS, we obtain 
the information we need directly from program officials, often on the 
spot or very soon after making the request. For example, our work on 
the Secure Border Initiative (SBI) has so far met with a very welcome 
degree of access to both DHS officials and documents. SBI is a 
comprehensive multiyear program established in November 2005 to secure 
U.S. borders and reduce illegal immigration. One element of SBI is 
SBInet, the program within CBP responsible for developing a 
comprehensive border protection system of tactical infrastructure, 
rapid response capability, and technology. The fiscal year 2007 
Department of Homeland Security Appropriations Act required that, 
before DHS could obligate $950 million of the $1.2 billion appropriated 
for SBInet, it had to prepare a plan for expending these funds, have it 
reviewed by GAO, and then submit it to Congress for approval.\5\ The 
plan was to be submitted within 60 days of the act's passage.
---------------------------------------------------------------------------
    \5\ Pub. L. No. 109-295, 120 Stat. 1355 (2006).
---------------------------------------------------------------------------
    CBP officials provided us office space at CBP headquarters, gave us 
access to all levels of SBInet management, and promptly provided us 
with all the documentation we requested, much of which was still in 
draft form and predecisional. DHS met the 60-day requirement when it 
submitted its plan to the Appropriations Committees on December 4, 
2006. We met our responsibilities by being able to review the plan as 
it developed over the 60-day period, and to provide the results of our 
review to the House and Senate Appropriations Committees on December 7 
and 13, 2006, respectively.
    In contrast to the access we were afforded in the above example, 
the process used in most of our interactions with DHS is layered and 
time-consuming. As discussed earlier, we are asked to submit each 
request for documents to the component coordinator rather than directly 
to program officials even if we have already met with these officials. 
Also as mentioned earlier, the component coordinator often refers our 
request to component counsel. And the Assistant General Counsel for 
General Law in DHS's General Counsel's office may become involved. The 
result is that we often wait for months for information that in many 
cases could be provided immediately. In some cases, DHS does not 
furnish information until our review is nearly finished, greatly 
impeding our ability to provide a full and timely perspective on the 
program under review.
    Each access issue with DHS requires that we make numerous and 
repetitive follow-up inquiries. Sometimes, despite GAO's right of 
access to information, DHS delays providing information as it vets 
concerns internally, such as whether the information is considered 
deliberative or predecisional. At other times, we experience delays 
without DHS expressing either a concern or a cause for the delays. On 
other occasions, DHS is unable to tell us when we might obtain 
requested information or even if we will obtain it.
    We have encountered access issues in numerous engagements, and the 
lengths of delay are both varied and significant and have affected our 
ability to do our work in a timely manner. We have experienced delays 
with DHS components that include CBP, U.S. Immigration and Customs 
Enforcement (ICE), FEMA, and TSA on different types of work such as 
information sharing, immigration, emergency preparedness in primary and 
secondary schools, and accounting systems. I have examples of two 
engagements to share with you today that illustrate the types of delays 
we experience and how they have affected the timing of our work.
    My first example is of an engagement related to detention standards 
for aliens in custody, where the team working on this engagement 
experienced delays of up to 5 months in obtaining various documents. 
The objective of this work, which is still under way and is being done 
for the House Committee on Homeland Security, is to assess ICE efforts 
to review facilities that house alien detainees, determine whether the 
facilities have complied with DHS standards, and determine the extent 
that complaints have been filed about conditions in the facilities. 
Some of the facilities are owned and operated by DHS; others are 
operated under contract with DHS. In order to determine the extent to 
which facilities are complying with DHS standards, we requested that 
ICE provide copies of the reports of inspections it conducted in 2006 
at 23 detention facilities. We requested those reports in December 2006 
and did not receive the final four of the inspection reports until just 
last week, after DHS departmental intervention. We had several meetings 
and discussions with DHS officials including program officials, 
liaisons, and attorneys, and we were never provided a satisfactory 
answer about the reason for this 5-month delay. We also experienced 
delays on this engagement obtaining a copy of the contract for detainee 
phone services between ICE and the phone service contractor. DHS took 1 
month to provide the contract and redacted almost the entire document 
because a DHS attorney contended the information was ``privileged.'' We 
followed up with DHS officials to communicate that our authority 
provided for access to this type of information and then waited another 
2 weeks before we were able to get an unredacted copy of the contract.
    In another engagement being done at the request of the then-
Chairman of the House Committee on Government Reform, we are reviewing 
an emergency preparedness exercise that DHS conducted in June 2006 
called Forward Challenge 06. The purpose of the exercise was to allow 
agencies to activate their continuity of operations plans, deploy 
essential personnel to an alternate site, and perform essential 
functions as a means of assessing their mission readiness. Our 
objective is to determine the extent to which participating agencies 
were testing the procedures, personnel, and resources necessary to 
perform essential functions in their continuity- of-operations plans 
during the exercise. We began our work a few months before the exercise 
and had arranged with DHS to observe the actual exercise. However, 2 
days before its start, DHS officials told us we would not be permitted 
to observe the exercise and stated that after completion, they would 
instead brief us on the exercise and the lessons they had learned from 
it. They provided that briefing in August 2006, at which time we 
requested relevant documentation to support the claims the DHS 
officials made to us.
    Subsequently, in November 2006, DHS provided us with one-third of 
the agency after-action reports we requested but redacted key 
information, including the identity of the participating agencies. DHS, 
however, was reluctant to provide us with the balance of the documents 
requested, stating that it considered these to be ``deliberative 
materials''; and expressing concern that sharing these with us would 
have a significant and negative impact on participants' level of 
openness in future exercises. Despite GAO's right of access to the 
information, the involvement of GAO and DHS officials at the highest 
level, and a letter of support from the former and current chairman of 
the committee, we did not receive access to the requested documentation 
until March 2007. Our report for this engagement was to be issued in 
November 2006; because we did not receive the needed information until 
March 2007, we will not be able to issue our analysis until later this 
year.

    GAO Has Taken and Suggested Steps to Resolve Access Issues with DHS
    We have made good faith efforts to resolve access issues. 
Specifically, we have undertaken many steps to work with DHS to resolve 
delays as expeditiously as possible and gain access to information 
needed for our work. At our audit team level we have asked staff to set 
reasonable time frames for requesting DHS to provide information and 
arrange for meeting and when we encounter resistance, to ensure that 
the information we request is critical to satisfying the audit 
objectives. When delays occur, our approach is to involve various 
management levels at both GAO and DHS, beginning with lower-level 
managers and working up to the Comptroller General and the Secretary. 
At each level, our managers and legal staff contact their counterpart 
liaisons and counsel, component heads, or DHS senior managers, as 
appropriate, either by telephone, e-mail, or letter, to communicate our 
access authority and need for the information to satisfy audit 
objectives. Our communication efforts have generally resulted in 
obtaining the requested or alternative information, or making other 
accommodations.
    We have proposed to DHS that the department take several steps that 
would enhance the efficiency of its process. First, our staff should be 
able to deal directly with program officials after we have held our 
initial entrance conference. If these officials have concerns about 
providing us requested information, they can involve DHS liaison or 
coordinators. Second, to the extent that DHS counsel finds it necessary 
to screen certain sensitive documents, it should do so on an exception 
basis. Other documents should be provided directly to us without prior 
review or approval by counsel. We provide DHS several opportunities to 
learn how we are using the information its officials provide us--we 
provide routine updates on our work to program officials; we provide 
program officials, liaisons, and counsel a ``statement of facts''; that 
basically describes what we learned during the engagement; and we 
formally provide DHS a copy of our draft report that contains our 
evidence, conclusions, and recommendations for its comment. There is no 
reason to hold information back from us when it has been made available 
to contractors, other federal agencies, state and local governments, or 
the public, or when its only sensitivity is that DHS considers it 
confidential or classified. The Secretary of DHS and the Under 
Secretary for Management have stated their desire to work with us to 
resolve access issues. We are willing to work with DHS to resolve any 
access-related concerns. Nevertheless, we remain troubled that the 
design and implementation of the current DHS process is routinely 
causing unnecessary delays.
    Mr. Chairman, this completes my prepared statement. I would be 
happy to respond to any questions your or other members of the 
subcommittee may have at this time.

    Mr. Carney. Thank you for your testimony.
    I now recognize Undersecretary Schneider for 5 minutes.

    STATEMENT OF SCHNEIDER, UNDER SECRETARY FOR MANAGEMENT, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Schneider. Thank you, Mr. Chairman, Chairman Thompson, 
Ranking Member Rogers and members of the subcommittee. I 
appreciate the opportunity today to discuss the department's 
relationships with its Office of the Inspector General and the 
Government Accountability Office.
    In nearly four decades of government service, I have 
developed a deep appreciation of the investigative and audit 
work that the IGs and GAO conduct. It is through appropriate 
oversight that government agencies can improve internal 
processes and programs. As Secretary Chertoff stated during his 
February 8 congressional testimony, cooperation with these 
entities is imperative.
    The department maintains management directives regarding 
its interactions and cooperation with the GAO and the IG. The 
management directive relating to the IG requires DHS employees 
to cooperate fully by disclosing complete and accurate 
information to the IG and provide prompt access to any files, 
records, reports or other information that may be requested by 
the IG. The management directive on the GAO similarly requires 
all DHS employees to work cooperatively with the GAO.
    Therefore, we believe that the proper framework is already 
in place as these directives reflect solid concepts and 
principles of the department's cooperation.
    Nevertheless, we must improve our execution. The secretary 
has already acknowledged that the department's responsiveness 
is not what it should be, and we are not as timely in our 
response as we would like to be. We are looking into numerous 
ways to improve the management processes of the department, 
including the responsiveness to the GAO and the OIG.
    During his February 8 testimony, the secretary acknowledged 
the need for greater information flow and he has committed to 
improving this process. For example, he has already put in 
place a mechanism to create incentives for DHS officials to 
make information flow to Congress a top priority and has 
required that employee performance reviews be linked to 
individual responsiveness to such requests.
    With respect to the IG, we are only aware of one situation 
where the IG has complained about major access issues. This 
instance related to the IG's investigation of efforts to update 
the Coast Guard fleet, known as the Deepwater Program. It is my 
understanding that this issue has been addressed and resolved.
    Last Wednesday, I learned that I would be the department's 
witness for this hearing. In preparation, I read previous 
testimony, IG and GAO reports. I met with the representatives 
of all the DHS components and obtained an appreciation for the 
large number of audits that are currently underway. I also had 
the opportunity to talk to Mr. Rabkin. He was kind enough to 
come over and spend a couple of hours with me. I had a pretty 
detailed discussion earlier this week with Mr. Skinner, the 
inspector general.
    In my opinion, we do not have consistent guidance across 
the department. Some of the operational components are using 
procedures and practices that were from their parent 
organizations before they became part of DHS. The use of these 
liaison offices in each organization is somewhat inconsistent.
    Looking ahead to the future, we are examining ways to 
improve the speed by which documents and information flow. This 
includes improving communications, training and outreach to the 
employees of the department, possibly revamping the 
organizational structure or the placement of these liaison 
offices, both at headquarters and in the operational 
components, providing additional guidance to department 
employees on how to interact with the IG and the GAO through 
further revising or updating instructions to the personnel.
    We need to make our expectations more clear to our people 
on the frontline as to what they can and should provide in 
response to the IG and GAO requests, with the intent that there 
would rarely be exceptions to the requests, and that responses 
must be timely. If there are any exceptions, they need to be 
identified quickly and resolved quickly.
    We must also improve our awareness at the headquarters 
level of problems that arise so we can take expeditious action 
to resolve these matters quickly and satisfactorily. The 
department takes this issue very seriously in examining the 
best ways to improve the processes.
    I have worked with the GAO and IGs for nearly 40 years. 
Frankly, I have never experienced problems such as the ones 
that are being discussed today. We need to do a better job of 
implementing the department's stated principles of full 
cooperation. I am hopeful that I can bring my experience to 
bear here and effect the required changes we all think are 
necessary.
    I appreciate the opportunity to be here today, and I would 
be happy to answer any questions you have.
    [The statement of Mr. Schneider follows:]

                Prepared Statement of Paul a. Schneider

    Good morning, Mr. Chairman, Ranking Member Rogers and Members of 
the Subcommittee. I appreciate the opportunity today to discuss the 
Department's relationships with its Office of Inspector General (OIG) 
and the Government Accountability Office (GAO). As well, I look forward 
to clarifying some factual misunderstandings and describing how we 
intend to improve the process for cooperating with these investigative 
bodies.
    As you know, I am the Department of Homeland Security (DHS) Under 
Secretary for Management and have served as such for the past four 
months. Prior to this experience, I was a defense and aerospace 
consultant for 3-1/2 years and before that, I spent 38 years as a civil 
servant -working in various positions, including as the Principal 
Deputy Assistant Secretary of the Navy for Research Development and 
Acquisition and as the acting Assistant Secretary for a period of time.
    In four decades of government service, I have developed a deep 
appreciation of the investigative and audit work that Inspectors 
General and GAO conduct. It is through appropriate oversight that 
Government agencies can improve internal processes and programs.
    The nature of the relationship with the DHS OIG and the 
relationship with the GAO are, of course, different. The OIG is a part 
of the Department, within the larger executive branch, and the IG is 
under the supervision of the Secretary of Homeland Security. The GAO is 
a part of the legislative branch. In the case of both the Department's 
OIG and the GAO, the Department seeks to handle information access 
issues in a harmonious manner in accordance with the law.
    In this vein, it should be noted that DHS routinely makes its 
employees and supporting documentation widely available for open, free-
flowing exchanges with the GAO and OIG. As the Secretary stated during 
his February 8 congressional testimony, cooperation with these entities 
is imperative.
    As the Under Secretary for Management, I oversee the Audit Liaison 
Office at the Department, housed within the Office of the Chief 
Financial Officer. This Liaison Office helps to oversee the 
Department's efforts to coordinate and cooperate with the GAO and OIG. 
Moreover, the Liaison Officer regularly meets with his counterparts at 
DHS component agencies. In this way, the Department Liaison can 
communicate DHS goals and objectives with the components' liaison 
officers.
    Although some critics have claimed that the liaison officers get in 
the way of the process, they are actually useful facilitators of the 
oversight and auditing functions. For example, the liaison officers 
help keep track of incoming requests and outgoing responses, thus 
avoiding unnecessary duplication, gaps, and inefficiency. The liaison 
officers understand the landscape of their respective component agency 
and thus ensure that the GAO and OIG obtain accurate information from 
knowledgeable personnel. The liaison officers in Washington, DC can 
also assist in providing physical access to field offices and 
facilities. Through the liaison offices, we aim to ensure proper 
accountability through a centralized, coordinated process, and we 
strive to provide complete, accurate and thorough responses to GAO and 
OIG requests.
    The Department maintains Management Directives regarding its 
interactions and cooperation with the GAO and OIG. For instance, the 
Management Directive relating to the Office of Inspector General 
requires DHS employees to cooperate fully by disclosing complete and 
accurate information to the OIG and provide prompt access to ``any 
files, records, reports, or other information that may be requested'' 
by the OIG. The Management Directive on GAO similarly requires all DHS 
employees to work cooperatively with GAO. Therefore, we believe that 
the proper fiamework is already in place, as these Management 
Directives reflect solid concepts and principles of the Department's 
cooperation.
    Nevertheless, it is these concepts and principles upon which we 
need to improve our execution. The Secretary has already acknowledged 
that the Department's responsiveness is not what it should be, and we 
are not as timely in our responses as we would like to be. We also 
recognize that there are serious concerns about the execution of the 
Department's Directives and objectives. Admittedly, the requirements of 
the Management Directives have not always been followed, and we need to 
improve these processes, as indicated by the remarks of the Comptroller 
General and the Inspector General during their testimony on February 6. 
While we understand certain of their frustrations, we do not agree with 
some of their factual assertions, including that lawyers attend every 
interview and review every document. That is simply not the case. Even 
so, we understand that we need to do a better job.
    We are looking into numerous ways to improve the management 
processes of the Department, including the responsiveness to GAO and 
OIG. During his February 8 testimony, the Secretary acknowledged the 
need for greater information flow, and he has committed to improving 
this process. For example, the Secretary has already put in place a 
mechanism to create incentives for DHS officials to make information 
flow to Congress a top priority, and has required that employee 
performance reviews be linked to individual responsiveness to such 
requests. In a similar vein, we are considering better ways to 
communicate our expectations regarding GAO and OIG inquiries to our 
employees.
    With respect to the OIG, we are only aware of one situation where 
the IG has complained about access issues. This instance related to the 
OIGY's investigation of efforts to update the Coast Guard fleet 
(Deepwater). It is my understanding that this issue has been addressed 
and resolved. I will note that, while both the Comptroller General and 
the IG complained about the ``tone at the top'' at DHS, I have seen 
just the opposite. The Secretary promotes an atmosphere in which the 
Inspector General is called--and called early--in situations where his 
insight and advice can prevent problems for the Department down the 
road. This is evidence of a healthy relationship with our IG.
    With respect to the GAO, quite frankly, we were a bit perplexed by 
the level of their complaint, especially given the substantial level of 
cooperation previously provided to GAO investigators. In general, we 
feel that the Department's cooperation with the GAO has been very good.
    Nevertheless, it is important to keep these activities in the 
proper perspective of the Department's overwhelming efforts to 
cooperate with a wide variety of investigative and oversight bodies. 
The Department has assisted in providing information for over 250 OIG 
Management Reports, 1,350 OIG Investigative Reports, and 600 GAO 
reports and testimony. Each report requires extensive work to collect, 
prepare, coordinate, produce, review, and provide input. These efforts 
require substantial work-hours from the dedicated, hard-working 
employees of the Department who must also balance these efforts with 
their operational responsibilities to secure the homeland. In total, we 
have facilitated thousands of interviews and provided, quite literally, 
millions of pages of documents and other materials. Also, it is 
important to view this cooperation in light of the other extensive 
oversight by more than 88 congressional committees and subcommittees, 
and approximately 2,000 hearings and briefings provided by Department 
officials per year. The sheer volume of work product belies any notion 
that DHS has somehow slowed the process or shunned proper oversight.
    Last Wednesday, I learned I would be the Department's witness for 
this hearing. In preparation, I read previous testimony, IG and GAO 
reports, met with representatives of all the DHS components and 
obtained an appreciation for the large numbers of audits that are 
currently underway; I also talked to the GAO and the IG. In my opinion, 
we do not provide consistent guidance across the Department, some of 
the operational components are using procedures and practices that were 
from their parent organizations before they became part of DHS; the use 
of liaison offices in each organization is somewhat inconsistent; and 
there is a general feeling that information provided will be used for 
``Gotchas.'' In light of my 40 years of dealing with GAO and IG 
organizations, I know that we can turn this around.
    Looking ahead to the future, we will further improve the 
Department's management processes. Indeed, we are examining ways to 
improve the speed with which documents and information are produced in 
response to appropriate requests. This includes improving 
communications, training, and outreach to the fine employees of the 
Department; possibly revamping the organizational structure or 
placement of the Liaison Office; and providing additional or updated 
guidance to Department employees on how to interact with the OIG and 
GAO. We should make our expectations more clear to the people on the 
front lines. We must also improve our headquarters-level awareness of 
problems that arise as a result of GAO and IG engagements, and of any 
access issues that arise in the operational components, so that we can 
take expeditious action to resolve these matters quickly and 
satisfactorily.
    As the Under Secretary for Management, I want to assure the 
Committee that we take this issue very seriously and are examining the 
best ways to improve our processes. I have worked with the GAO and IGs 
for nearly 40 years, and I am hopeful that I can bring my experience to 
bear here and affect the changes we all think are necessary. We need to 
do a better job of implementing the Department's stated principle of 
cooperation, and we will work with all DHS components to improve our 
implementation and execution. DHS welcomes input on how to better 
pursue its mission, and we look forward to working with the 
Subcommittee and other congressional bodies, as well as the Inspector 
General and Comptroller General, to better protect the Nation's 
homeland. Thank you. I would be happy to address whatever questions the 
Members may have.

    Mr. Carney. I thank the witnesses for their testimony.
    I will remind each member that he will have five minutes to 
question the panel. I now recognize myself for questions for 
five minutes.
    Undersecretary Schneider, your testimony struck me oddly, 
both as hopeful, but somewhat ambivalent, I think, might be the 
right word. On the one hand we are saying that we are making 
good progress, that we are doing well, that we have a 
substantial level of cooperation, it has been very good. On the 
other hand, we have some serious problems. Which is it?
    Mr. Schneider. Mr. Chairman, let me give you some examples. 
In my discussion with the inspector general on Monday, I said, 
``Can you give me some concrete examples of where we in the 
department do things well?'' And he said, ``Sure.'' And so he 
cited, for example, what I would phrase, just giving back what 
he told me, of three turnaround efforts, say, in the past six 
months.
    One was the Coast Guard. His example was after the issue 
with the national security cutter, which was the big issue that 
surfaced, he met with the commandant of the Coast Guard, the 
deputy secretary, and I forgot who else, and basically 
established an agreement in principle that basically got full 
and open cooperation. Since that period of time, once the 
leadership of the Coast Guard, the commandant, got involved, he 
has not had any problems.
    The other two examples he cited were my own chief financial 
officer organization. They are, for obvious reasons, an area 
that frequently get looked at as good management oversight, by 
the IG. What he told me was once the new Senate-confirmed CFO 
came on board, Mr. Norquist, after a brief discussion with him 
about the problems that the IG had had in the past, he has not 
had any problems. Those problems have disappeared.
    He also talked to me about what he considered to be one of 
the most serious organizations that he had problems dealing 
with, which was the headquarters Science and Technology 
Directorate, and that upon the arrival of, and I think it was 
back in the summer, the new undersecretary, Secretary Cohen, 
based on the discussions that the IG had with him about the 
difficulties, that has been a complete turnaround.
    So he and I had a discussion, and I guess it just 
reaffirmed in my own mind what I felt all along is that it is 
the responsibility of leadership to reflect the change. When 
the leadership of those organizations realized they had a 
problem, they took action. I can tell you in my own personal 
experience since I have been here, I mentioned in my testimony 
that the secretary takes very seriously responsiveness to 
Congress.
    I can tell you that since I am one of the senior members of 
his staff, the controls that he has put in place and the 
management oversight that he personally and the deputy 
secretary personally exercise in terms of timeliness of 
reports, or questions for the record, it is managed at a very 
high level because the secretary and the department's 
credibility is key to it. In just my personal assessment since 
I sign out the large percentage of the reports that are due to 
Congress, I can tell you we track every one. We have a weekly 
sit-down with the deputy secretary and all the senior managers 
and go through it.
    So my view is, the leadership gets involved at the right 
level, and if necessary at the highest level, it gets resolved. 
The other issue that he gave me an example was he cited one of 
the other operational components. I think it was Customs and 
Border Protection. He said, ``I will tell you, I was having a 
problem, it got to my level, I picked up the phone, I called 
the head of Customs and Border Protection, Commissioner Basham, 
and he said `no problem', and it was solved in five minutes.''
    So that is why I am optimistic that leadership has to get 
involved. If I could give you one other example, because I 
think it is a very telling example, of why I am optimistic and 
why I also recognize we have difficulties. When I had the 
opportunity to review Mr. Rabkin's testimony yesterday morning, 
obviously the first thing I did was scan it. I noticed that he 
cited two examples in there, one pertaining to Immigration and 
Customs Enforcement, ICE, and the other to an exercise, I think 
it was called Forward Challenge.
    So after reading the ICE example, I had no knowledge of it. 
I picked up the phone and I called the head of ICE, Assistant 
Secretary Myers, and I said, ``I am going to send you this 
report. I would like you to have somebody call me back with 
some information in the morning so I at least have some 
awareness of it.''
    Well, 60 minutes later I got a series of e-mails from her, 
and then a personal phone call. It went like this, and I will 
just kind of summarize it. She sent an e-mail to all of her 
subordinates, her key subordinates nationwide and basically 
said, ``I want you to read this document. It is very 
disappointing to me, and I want you to know that I will not 
tolerate this type of performance by my organization.'' And 
then she gave some additional guidance, et cetera.
    She called me shortly after that and told me that she had 
picked up the phone and called Mr. Rabkin, and said that she 
was totally unaware of this thing, and that is not the type of 
performance that she expects from her organization.
    So this example--and I am happy, quite frankly, in one way 
that it was in the report--pointed out a couple of things. 
Number one, why did it get to that level that she had to find 
out about it in a GAO report? And since that management 
directive that has been in place says that I am responsible 
within the department for the management of this system, why 
did I find out about it by having to read the testimony?
    So we within the department, and that includes me, my 
liaison office, the operating components liaison office, we do 
not have the right procedures in place by which information 
gets surfaced so we can react quickly and get these issues 
nailed down.
    I hope I tried to explain and answer your question.
    Mr. Carney. I appreciate that.
    I will now recognize the ranking member of the 
subcommittee, the gentleman from Alabama, Mr. Rogers, for 
questions.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Schneider, I want to direct this question to you. As 
you may or may not be aware, I have been pursuing border patrol 
training information for a couple of years now, specifically 
trying to make sure that we are on track to meet the 
president's goals of having 18,500 border patrol agents trained 
and on the ground in 2009. But also trying to determine why it 
costs $187,000 per border patrol agent to train them and put 
them on the ground.
    Having said that, in order to meet the goal of getting from 
where we started, and that is 12,500 agents to date, 18,500 
agents in three years, we are going to have to train 
approximately 8,800 per year when you factor in attrition from 
retirements. So what I have been trying to get CBP to do is to 
give me some basic information about how they are going to 
accomplish this goal.
    In January, I requested from Customs and Border Protection 
an update of the statistics CBP previously provided on the 
number of border patrol trainees and where they were in the 
pipeline, what I refer to as the pipeline between the time we 
advertise for the applicants until we vet them, and then put 
them through the educational program, when there is an actual 
agent on the ground.
    In March, I asked again for these statistics in a meeting 
with the CBP commissioner. And again this month I asked the DHS 
acting general counsel to help secure these basic statistics. 
What I would ask you, Mr. Schneider, is will you provide these 
statistics for the record? Specifically, please provide the 
number of border patrol trainees who, one, have entered the 
pipeline; two, discontinued training; three, started training; 
four, dropped out due to attrition; or five, graduated. [See 
Appendix II.]
    My concern is this: I have believed from the beginning that 
we don't have the current infrastructure in place at Artesia, 
New Mexico, if that is going to be the sole location for 
training, to move this massive number of agents through in 
three years. I have been out there and visited and I have 
talked with the folks in charge. It is a great school. I am not 
disparaging the school. But based on their historical 
performance, I don't see how they can recruit and process 
enough to do that.
    I have asked for information that will tell me I am wrong. 
I can't get any information. This is just one of many examples 
that the members of this committee have had with different 
components within DHS. One of my concerns is the reason they 
are not providing the information is because they are not 
meeting the goals. They don't want us to see the information 
they have because it will demonstrate that in fact the 
administration is not going to be able to hit those targets.
    That is information we need to know because if we are not 
going to be able to hit that 2009 target, we have to do 
something different. That is why I think they are afraid that 
we are going to propose that we do something different. So that 
is just my pet problem. If you could help with it, I would 
appreciate it.
    Mr. Schneider. Congressman, I will certainly go look at 
that. Most of these types of formal reports or responses to 
Congress, I am the guy that is the final signature on most of 
these. I can tell you, I sign out reports where the numbers are 
not very good. OK?
    I don't remember that one, but I do sign a tremendous 
amount of reports. I really read them all, and I pick out the 
areas that I think where in fact we have not met expectations. 
On this specific case, I will go back and find out why we 
haven't been able to answer your question.
    Mr. Rogers. Thank you, sir.
    Mr. Carney. Does the gentleman yield?
    Mr. Rogers. Yes.
    Mr. Carney. Okay. I now recognize the chairman of the full 
committee, Mr. Thompson, for five minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Rabkin, Undersecretary Schneider talked about the need 
for senior leadership to become involved in this access to 
information and cooperation issue. Do you have an opinion as to 
whether the problems you encountered were just at the component 
level? Or did they start at the top?
    Mr. Rabkin. It is my sense, Mr. Chairman, that the problems 
start at the top. There is a tone that is set in the 
department, and it reflects its way through how the components 
are expected to implement the directives--what the words really 
mean; what kind of action is recognized and rewarded; what kind 
of action is sanctioned, et cetera.
    I am concerned that the flow of information to the top also 
is not what it should be. I am pleased to hear that there are 
steps being proposed and hopefully taken to improve that. There 
are at least two ways that top management can be aware of these 
kinds of problems. Number one is that the liaisons and the 
component heads will surface them themselves. The second is 
that GAO will bring them to a head.
    From our perspective, that is part of our protocol. We will 
do that, but it is more towards the end of our process than at 
the beginning. We don't want to come running to the component 
head with every question that we have and every time we think 
documents are not flowing or information is not flowing as 
quickly as possible. We try to work with the program officials. 
We try to work through the liaisons. We work actively with DHS 
and component counsel to try to resolve this. We work it up the 
management structure slowly to try to resolve this at as low a 
level as possible.
    When the circumstances get to the point where we are not 
making progress and we feel we have to get to our clients and 
let them know that things are being delayed, we will bring that 
to higher levels within the component's management, eventually 
to Mr. Schneider's office and if need be to the deputy 
secretary and the secretary, as we have done in the past.
    Mr. Thompson. Thank you very much.
    Undersecretary Schneider, are you aware of a letter that 
the inspector general provided the deputy secretary with 
detailing the role of the inspector general and a series of 
frequently asked questions?
    Mr. Schneider. Yes, I am. It is a single-page letter that 
was a proposal by Inspector General Skinner, a proposed letter 
that he at the time, I think it was July, 2006, recommended 
that the secretary sign out to all employees. It laid out the 
very simple statement about what he expected them to provide, 
and then it was an attachment that had a series of what he 
considered to be frequently asked questions and answers.
    Mr. Thompson. Your testimony to the committee is that you 
were aware that in this letter the inspector general asked that 
they be distributed.
    Mr. Schneider. Yes. From what I understand, and when I 
became aware of this letter a couple of days ago, my question 
was: Who actually saw it? I don't know for a fact that the 
deputy secretary actually saw it. I know for a fact that the 
general counsel saw it. Whether it ever got to the deputy 
secretary or secretary with or without the general counsel's 
comments, I don't know. I didn't ask him, frankly.
    Mr. Thompson. Can you tell us that as of this hearing date 
whether or not that letter has ever been distributed as 
requested by the inspector general?
    Mr. Schneider. It has not been distributed.
    Mr. Thompson. Do you know why it was not distributed?
    Mr. Schneider. Yes. I have a pretty good reason 
understanding why. I think there were issues with blanket 
implementation across the department on several of the items 
that were listed in the covering memo.
    Mr. Thompson. Fine. Do you know whether or not the 
inspector general's office was every told that there were some 
issues with the memo?
    Mr. Schneider. When I talked to him, the inspector general, 
on Monday, I talked about this memo within the context of, 
``Hey, Rick, is this really needed?'' Because I had seen 
previous documentation in some of his reports--and I forget 
which report it is--where he indicated that additional 
protocols were not necessary. That was actually the precursor 
to our discussion about execution and leadership.
    Mr. Thompson. I understand. I guess what I am trying to get 
to is if someone sends you a letter in July and here it is 
April of the following year, and you have not even said to the 
person who sent the letter ``we have a problem with it.'' I 
think that goes to the fundamental issue of why we are holding 
this hearing is if we can't answer a letter, then how in the 
world do we expect the agencies who are charged with oversight 
to get the information that Congress is requesting?
    Mr. Schneider. Very specifically, I do not know. Well, 
first of all, I am not aware of any formal response to this 
draft letter. I am also not aware of whether it was handed to 
the general counsel or if it was formally transmitted, or 
whether or not they had any discussions about what the 
potential concerns with what was in here. So yes, sir, should 
he have perhaps given him a formal, ``Look, I have issues with 
A, B, and C. Let's talk about it''? Probably.
    Mr. Thompson. Will you provide the committee with the 
answer to all three of those questions you just raised?
    Mr. Schneider. Yes, sir.
    Mr. Thompson. As to whether or not it was ever responded 
to.
    Mr. Schneider. Yes, sir.
    Mr. Thompson. Whether or not, from the standpoint of 
implementation, whether it was distributed.
    Mr. Schneider. I will send you this formally in writing, 
but I know it was not distributed.
    Mr. Thompson. Well, then we need to know why it was not. 
Who made the decision not to distribute it?
    Mr. Schneider. OK.
    Mr. Thompson. The inspector general's position is a 
significant position for this department. I would think that if 
they ask the department to do something and the department 
ignores it, that is significant, and the process of ignoring it 
is a real concern.
    Mr. Chairman, let me just thank you for conducting the 
hearing, but I hope you can see that it just continues to raise 
other questions about information.
    And the last thing is, if our own people can't have access 
to information, I wonder what John Q. Public would have if they 
made a request. I guess at some point we might need to look at 
it, but I think we are charged, just like you, with a 
responsibility for providing information in a reasonable period 
of time.
    I yield back. Thank you.
    Mr. Carney. Thank you, Mr. Chairman.
    The chair now recognizes the gentleman from Colorado, Mr. 
Perlmutter, for five minutes.
    Mr. Perlmutter. Thanks, Mr. Chair.
    Gentlemen, thank you for being here today.
    I would like to start on the fact that we don't have 
Inspector General Skinner here to testify today. I understand 
he believes that the department is making a lot of improvements 
in terms of communication, et cetera.
    Can either of you comment on that? What improvements do you 
think have been made in the last three months since this 
committee, and I know Congressman Rogers has been focusing on 
this subject for a long time.
    What improvements really have been made in the last two or 
three months that either one of you have seen?
    Mr. Schneider. I think the three examples that Inspector 
General Skinner cited to me about the Coast Guard, the chief 
financial officer, and the Science and Technology Directorate 
of the department, that he has seen a complete turnaround, and 
that they are examples of how the organization ought to 
function and respond to IG requests, where previously they were 
poor performers in providing the information.
    So we didn't change any directives. It was a question of 
the head guy saying, ``this is important and I expect you to 
work with these people.'' So I see that, because I was looking 
for is there any bright sunlight or some examples that you can 
give me, and those are three. He said, ``I will give you three 
right off the top of my head, because it is a complete 
turnaround.''
    So that is recent. It reflects, frankly, the change in 
individuals once they came on board. In the case of the Coast 
Guard, once the situation was made aware to him in detail, and 
he is a detail-type of guy, to basically change the response of 
the organization. So I think those are pretty concrete 
examples.
    Mr. Perlmutter. The inspector general has seen those. What 
about you? Where have you seen improvement?
    Mr. Schneider. I work very closely with the Coast Guard, 
and the main reason is because of the roughly $1 billion a year 
we spend on Deepwater. I think the lion's share of the Coast 
Guard IG investigations and audits have been on Deepwater. I 
spend a lot of time personally with the flag leadership of the 
Coast Guard, reviewing the details of that program.
    Some of the questions I ask is, ``Is information flow going 
OK with the IG? With the GAO, if they are involved? Because I 
want to understand. And from what I gather, and it was 
corroborated by the inspector general, in that particular case 
it works very well. When I talk to the CFO who works for me, 
the chief financial officer, one of the things I do is I 
inquire about how well we are doing in answering the IG's 
responsives. I basically say, ``give me some examples, show 
me.''
    I also take a look at how many audits or how many 
inspections do we have going on? What is the rack up of the 
numbers? Because there is a tremendous volume of them. I am not 
satisfied, quite frankly, with the level of detail, the 
information that I get at headquarters to know whether or not 
we have an issue brewing.
    So one of the things that I am trying to figure out how to 
do is if the IG or the GAO is trying to interview people 
somewhere in the continental United States or somewhere 
overseas, and they are having great difficulty with access and 
things like that, I want to try and figure out how I can get my 
information flow from, I will call it that agent on the 
frontline back up to the right authorities to fix it.
    Mr. Perlmutter. Let me shift you over to the immigration 
side of this department. How is that going?
    Because I have been hearing through the grapevine, similar 
to some of the things that Mr. Rogers was talking about, that 
the flow of information about personnel issues, as well as the 
focus of the department, the missions of the department, there 
are all sorts of issues about information coming up to the top, 
up to all of you. We have had some problems with that. Am I 
completely off-base? Do you know what I am talking about?
    Mr. Schneider. No, sir, I don't. I am afraid I don't know. 
I know in the case of, well, let's talk about Customs and 
Border Protection. There are two examples, OK? One example is 
what I would consider to be what the IG told me in terms of 
responses having difficulty. It was resolved in five minutes--
OK?--with the head of Customs and Border Protection.
    I know in the case of, I think it is Mr. Rabkin's 
testimony, where the CBP went through extraordinary effort to 
basically provide the information that was required. I also 
know that right within that same department, I think he 
contrasts, if you will, difficulties getting information from 
other elements of that particular program.
    When I talked to Ms. Myers about the ICE example in here, 
she also told me about another example (inaudible) required, 
and I also know about another example that I think she 
discussed with Mr. Rabkin I think on Atlas, where in fact I 
believe our interpretation of how well that went, was it went 
very well.
    So here I have two operational components--OK?--the same 
leadership. On the one hand we have efforts that work very 
smoothly, information flows very quickly; and on others, we 
have problems. OK? And so relative to immigration and 
protection of the borders, I have considered that ICE and CBP 
are two of the three main operational components.
    So we have examples in both of those where it works fairly 
well, and we have examples in both of them where we have 
problems.
    Mr. Perlmutter. OK. Thank you.
    Mr. Carney. Thank you, Mr. Perlmutter.
    I will start the second round here. Mr. Rabkin, in his 
prepared testimony, Undersecretary Schneider said that the 
department was ``perplexed'' by the level of the GAO's 
complaint. Did GAO raise concerns with the department prior to 
Comptroller General Walker's February testimony? If so, with 
whom?
    Mr. Rabkin. We raised these issues day-in and day-out at 
the lower levels with our liaisons. The liaisons, it is part of 
their responsibility in fact to try to resolve these problems. 
Because of the procedures that are in place where we have to go 
through the liaisons to deal with program officials, we have to 
rely on them.
    And so then it becomes a question of what is a reasonable 
amount of time for us to wait, while they try to resolve the 
issues as to whether the issue we are requesting, (A) exists; 
and (B), will be provided; (C), when it will be provided; and 
(D), in what shape it will be provided--that is, whether any 
contents will be redacted, et cetera.
    And because our people work constantly with them, we like 
to give them enough time to try to do their job. Days turn into 
weeks and weeks turn into months. And then we have to make 
judgments as to: Is it really going to come next week, as they 
have said? Or is it time to kick it upstairs? We make those 
calls on a facts-and-circumstances basis in each case.
    And there have been cases where we have kicked it upstairs, 
so to speak, and we have had meetings: we have had phone calls 
about letters that are being written to formally request this 
information coming from our managers to the undersecretary; 
there have been letters that have gone even higher up. So we 
have been doing this, but we much prefer doing it at the lower 
levels.
    Mr. Carney. Thank you. I am having a tough time getting my 
mind around a lot of this. Is the slow response bureaucratic 
intransigence? Is it political embarrassment? Is it just 
stubbornness? I hate to have you speculate on this, but from 
your professional background, what do you attribute some of 
this to?
    Mr. Rabkin. I think at first there was some concern about 
what the process should be. As the department was formed, a lot 
of different agencies came together with different procedures, 
et cetera. I think there was a lot of GAO work going on at the 
time, and in my opinion a lot of that was because congressional 
committees were not getting direct responses--as you have 
already mentioned--and you (Congress) were asking us then to go 
in with our folks and try to get information out of the agency 
using our methods.
    So we were very busy doing that. They were getting 
inundated. They staffed up their liaison functions, which was 
helpful. Then Hurricane Katrina hit. I think that was a 
watershed event in that not only were we involved in looking at 
the performance of the department, but the White House was 
looking it. The IG was looking at it. The House had a special 
committee. The Senate Governmental Affairs Committee had a 
special investigation on it.
    And they were being inundated with requests for a lot of 
the times the same documents. In an attempt to control the 
dissemination of those documents, they created a process where 
everything had to come into a single place before it all went 
out. That, of course, was a bottleneck. At one point, our 
formal request got lost and we had to wait for them to find it, 
and we had to get them another request, et cetera. So it was 
not the best of times.
    Since then, I think that the tone, up until recently, has 
been that this is the process the department wanted GAO to go 
through. The department needed to be very sure before anything 
was turned over to GAO that they felt that GAO ought to have 
it. And it was, quite frankly, a little confrontational.
    In response to the question that Congressman Perlmutter 
asked recently, we have also noted some changes recently. I 
have asked my staff to keep me informed of their access issues 
and there are some anecdotes where documents are coming in a 
lot quicker than they did before. But, I am concerned for two 
reasons. Number one, it is just anecdotes. And number two is 
that to the extent that there is potential turnover of the 
people in DHS who are now in managerial and executive 
positions. DHS management are asking them to do it today, but 
these people may change tomorrow. The new attitude may come in. 
So I would like to see something a little more 
institutionalized. We could talk about that if you would like.
    The other issue is where there have been opportunities, or 
where there have been cases where there has been great 
cooperation. Both the cases that Undersecretary Schneider cited 
of SBINet and the Atlas Program are cases where the 
appropriators withheld the release of appropriated funds until 
the department prepared an expenditure plan or other documents, 
had it reviewed by GAO, and then sent it to the Congress to 
convince the Congress that they knew what they were going to do 
with the money.
    So our approval, our review and comments to the Congress on 
those plans was essential in the release of those monies. And 
so there was a terrific incentive for the department to 
cooperate, which they did. I am not suggesting that every 
program and every appropriation be tied to this, but when it 
is, it seems to work.
    Mr. Carney. Yes, when there is money involved, things move. 
We understand that.
    I now recognize Mr. Rogers for a second round of questions.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Rabkin, I would like to talk about some things you 
would like to see done differently. You are probably aware that 
in the 2008 DHS authorization bill, we included a provision in 
there that would require all the legislative affairs offices of 
the agencies to have direct reporting responsibility to the 
assistant secretary for legislative affairs at DHS. Do you feel 
like that would help this flow of information that we are 
looking for?
    Mr. Rabkin. I think most of the liaisons are not in the 
legislative affairs offices, so I think there is something 
separate that would have to take place. Whether it is mandated 
by the Congress or done administratively by the department, I 
think tying the liaisons together and elevating their status is 
a good first step. But I think there are more specific things, 
such as. . .
    Mr. Rogers. Tell me about them.
    Mr. Rabkin. --in the directive that DHS has where they tell 
their people, ``this is how you interact with GAO,'' they have 
a checklist of information. They say that if any of this kind 
of information is going to go to GAo, we need to check on it 
first before it goes. That checklist includes such things as 
information that has been marked as security-sensitive 
information, for example.
    We handle that stuff all the time. We handle it as well as 
the department does. It should really be no issue on that. I 
think it is a matter of can they fine-tune of identifying those 
cases where somebody else outside of the program office needs 
to pre-approve the release of the information. I would like to 
see a change where the norm is that the information will be 
provided to GAO. And that the program officials will notify the 
liaison and they can notify their counsel at the time it is 
provided to GAO. And if there is any additional sensitivities 
or handling instructions that need to go with it, there is 
plenty of time for them to have that conversation with us.
    I would also like to see us have direct access to the 
program officials. These are people who are responsible for 
carrying out the very important programs of the department. 
They are very capable people. They ought to be able to make 
judgments as to what information that they have is so sensitive 
that it shouldn't be provided to the GAO, or provided only 
under certain circumstances. Also, we ought to be able to have 
conversations with them. We can follow-up on information they 
provide us to get clarifying questions answered, without having 
to go through liaisons and having everything officially 
scheduled. It is much more efficient to do it directly.
    Mr. Rogers. Right. You stated in your prepared statement 
that they have mechanisms that the Department of Homeland 
Security employs in cooperating with investigations by the GAO 
that are far more impeding than those encountered in other 
agencies. Are those the things that you are talking about?
    Mr. Rabkin. Yes, sir. The involvement of the liaisons and 
the reviews. I think that what Mr. Schneider talked about 
regarding trying to do these reviews in a more timely way, 
would really help, because a lot of times what happens is: All 
right, we can understand and wait for a couple of days while 
somebody in DHS checks out a document, to see if this is the 
right kind of information that would in fact answer the 
questions that GAO is asking. We ask for information, not 
necessarily for documents. If they have a document that would 
answer the questions, that is fine. So they may have to do a 
little research to address our specific question.
    But when days turn into weeks, and we talk to the liaisons 
and ask, ``when can we expect to get this?'' And the DHS laison 
responds ``Well, we don't know; the lawyers are looking it, or 
it has to go up to this person.'' They just sort of lose track 
of where it is. That is what is very frustrating.
    Mr. Rogers. Do you find this same sort of structure or 
mechanism in other agencies?
    Mr. Rabkin. Most other agencies, even agencies like the 
Defense Department that deal with very sensitive information 
all the time have policies, procedures and practices in place 
that make it more efficient for the information to be shared 
with GAO. This is by far at this point in time--for the 
department and all the teams in GAO that work with the 
department--what we have found this to be our biggest concern. 
It doesn't mean that the practice of providing documents is 
perfect elsewhere, but it is an exception elsewhere. Here, it 
tends to be the rule.
    Mr. Rogers. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Carney. Thank you, Mr. Rogers.
    Mr. Perlmutter for five minutes?
    Mr. Perlmutter. Thank you.
    A couple of questions. Mr. Rabkin, you brought up the 
subject of this unclassified-but-sensitive information. We had 
a hearing yesterday in the Intelligence Committee about 
reclassifying all this stuff, because I think there has been a 
bit of a shell game going on, I don't whether intentionally or 
not or just because folks don't know exactly what their 
documents are and how sensitive they are, and whether you 
should be gaining access to them, and every lawyer has to look 
at everything before your organization gets to do its job.
    So I am trying to remember, the gentleman, the 
undersecretary, he is an ambassador. I don't remember his last 
name.
    Mr. Rabkin. McNamara?
    Mr. Perlmutter. McNamara, yesterday. I think that it would 
be good if the GAO or the inspector general also worked with 
the ambassador in kind of redefining all of those 
classifications, because I think part of the problem, I would 
just say as a lawyer I want to represent my client. I want to 
make sure that the client doesn't release documents that are 
super-secret and cause all sorts of other kind of havoc.
    On the other hand, we need to have the oversight and sort 
of this watchdog role, and we can't play this kind of shell 
game. Because Mr. Undersecretary, I am concerned that the 
communications problems go far beyond the Coast Guard issues. I 
think just in the various hearings we have had, we have heard 
about it with respect to ICE, with the Border Patrol. We have 
heard about it with FEMA. The trouble is, you have 22 agencies 
now all under one roof. Somebody says, ``Well, that is 
sensitive information; we are not going to give it up.'' 
Another, you know, ``I have to talk to my boss on that one; we 
are not going to share it with you.'' There has just been too 
much of that across the board.
    I am happy to hear there has been improvement. I think the 
fact that we focused on it so directly right out of the box, 
there have been some changes. But having said that, starting 
with you, Mr. Rabkin, just sort of react to my free verse here.
    Mr. Rabkin. Mr. Perlmutter, last year we issued a report on 
sensitive-but-unclassified information, mainly in DHS. We 
commented on the proliferation of different types of sensitive-
but-unclassified information, and the lack of rigor in how it 
was marked, how it was handled, how people were trained in 
handling it, who within the Department were making these 
decisions, who were reviewing them, et cetera.
    We made a series of recommendations to try to tighten that 
up. Those recommendations, at first the program manager, who is 
now Mr. McNamara, were unreceptive to our report. I think they 
have changed their mind about that. I think there are attempts 
being made now to get a handle on that. I think either his 
office or at OMB or somebody at that level has got to reach 
across government and try to get a handle on this. Because when 
we first went through, we found--I forget what the number is--
around 100 categories of sensitive but unclassified 
information. And when they looked, they found even more.
    So this is a significant problem. This is a balancing act 
that has to take place. There are certainly bona fide reasons 
to protect information. On the other hand, every time you do 
that, you are limiting the public access.
    We have that information. That should not be a reason for 
us not to have access to it. We can look at it. We can analyze 
it. We can report it to you. We just put a different kind of 
report cover on it, and that special report cover limits the 
distribution of information.
    But what we try to do at the end of each of those 
engagements where we have sensitive-but-unclassified or even 
classified information, we try to find a way to get a report 
out to the public that will let them know what we looked at, 
whether we found problems without getting very specific, and 
whether we made recommendations, so that the public, as well as 
the Congress and GAO, can hold the department's accountable for 
making change.
    Mr. Perlmutter. Mr. Schneider, you seem to want to say 
something.
    Mr. Schneider. Well, first of all, I agree that in the 
attachment that we have in that management directive that Mr. 
Rabkin talked about, it is far too broad. That is one of the 
things that I really specifically had in mind in my testimony 
about can we narrow this thing down so that the exceptions are 
rare.
    I agree with him about security of sensitive information. 
In my nearly 40 years, my experience is we have given the 
highest level of classified information to the GAO and it has 
never been a problem. Sometimes, in fact, when we accidentally 
had something that was incorrectly marked, we said, ``hey, you 
need to fix it,'' and they have fixed it.
    So I guess I agree with him that that list is too broad. We 
have to narrow it down. It ought to be a rare exception, as 
opposed to the practice. The classification issue in terms of 
whether it is sensitive security information, secret 
information or the like, proprietary, et cetera, if it is 
properly marked and everybody understands it according to the 
classification standard, that should not be an issue.
    Mr. Perlmutter. OK. My time is up. I had one more question.
    Mr. Carney. The chair will yield for three minutes.
    Mr. Perlmutter. Just one minute. Thank you, Mr. Chair.
    In this draft that Chairman Thompson was talking about, and 
I know it hasn't been circulated. I am just curious if there is 
any kind of repercussions if this doesn't happen.
    It says, ``In particular, I expect DHS employees to 
cooperate with OIG by promptly providing all requested 
materials and any other information relevant to a request; 
providing requested information materials directly to OIG, not 
routed through an intermediary; honoring OIG requests for 
private interviews and direct contact, recognizing that any 
employee may speak directly and confidentially with OIG; and 
respecting OIG independence by refraining from any activity 
that might chill an employee or contractor's communication.''
    I know that wasn't widespread, but those things seem ABC-
like to me. Those are basic parts of the communication path in 
government. So those things just are basic.
    Is there any kind of repercussion in the event a department 
or an individual tries to stonewall or doesn't permit these 
things to happen? Is there some kind of a black mark that that 
person gets?
    Mr. Schneider. I am not aware today of any black mark. 
There are a couple of points here, and this is one of these 
situations where 99 percent of the time there is probably not 
an issue with what you call, Congressman, the ABCs. It is the 1 
percent that we seem to spend the tremendous amount of time on 
to make sure that we are not crossing the line on something.
    Some of the issues come up relative to third-party 
classification of the document. It is not our document. We 
didn't classify it. We don't even know what the right 
classification is. We do a lot of work, as you are aware, with 
lots of the other departments. And so those are some of the 
issues that I would say are classified in the 1 percent.
    We believe that there are other issues here. For example, 
the secretary in his February 7th or 8th testimony in front of 
Chairman Price in the Appropriations Committee specifically 
talked about this issue relative to deciding that he as a 
prosecutor would have liked to be able to talk to witnesses 
without counsel present, but the fact of the matter is 
sometimes in the case here that is not going to be the case.
    So as a general rule, we wouldn't expect to have somebody. 
If an employee decides that he wants to have a representative 
with him when he talked to the IG, my understanding is the IG 
would ultimately agree to that.
    There is one issue here on the bottom of this page that is 
particularly significant. I spent a little bit of time doing 
some research on this one because of my background being a 
program manager, and executing major programs has to do with 
direct access by the IG to contractor employees.
    Mr. Perlmutter. OK.
    Mr. Schneider. That is an issue. I am an engineer. I am not 
a lawyer or contracts type, but basically I have looked at the 
FAR-DFAR clauses and HSAR clauses, and what is required in 
contracts is for information, for data. OK? Hard copy data 
information. We do not have and we would suspect that in many 
instances, especially where we have contractors that have 
strong unions, direct access to people without a management 
supervisor or union representatives present would probably be a 
problem.
    So those are just some of the issues that at first blush 
would cause some difficulty. It is one of the reasons why, 
notwithstanding the fact we should have taken prompt action, as 
Chairman Thomson said, but it is one of the reasons why the 
ABCs are on the surface, yes. Now, can we do things? Yes. We 
can shorten that list of exceptions and basically give the 
information and on an exception basis use good common sense and 
judgment as to whether or not they need to talk to somebody.
    Mr. Perlmutter. Thank you, sir.
    Mr. Carney. Thank you, Mr. Perlmutter.
    Mr. Rabkin, prior to the formation of the department, GAO 
had dealings with many of the legacy agencies. Can you tell 
whether GAO's relationship with those agencies has changed 
since DHS was formed? Have they gotten more cooperative? Less 
cooperative? Stayed the same? Can you characterize that for me, 
please?
    Mr. Rabkin. In general, Mr. Chairman, they have gotten less 
cooperative. While relationships prior to the formation of DHS 
with these agencies were not always perfect, we had less 
problems getting direct access to agency officials. We had 
fewer problems with the timely provision of requested 
documents. Whether it was the legacy INS, the Customs Service, 
FEMA, Coast Guard, et cetera, I think, as a rule, access at the 
working level was much better.
    Mr. Carney. Can you attribute that to something?
    Mr. Rabkin. As I mentioned earlier, I think it was first of 
all, the formation of the department, and everybody now was 
part of a new department and they were looking around to see 
what are the rules: ``how should we behave?'' And that took a 
while for those questions to be answered.
    When they were answered, they then became a matter of 
interpretation, and that took a little while until that was 
worked out. And then in 2005, when Hurricanes Katrina and Rita 
and Wilma hit the Gulf Coast, there was a lot of worry and 
concern about how the department, specifically how a lot of the 
departments, but specifically about DHS and FEMA reacted.
    As I mentioned earlier, there were a lot of investigations 
and a lot of requests for access to data, which resulted in DHS 
centralizing control. And eventually a pattern was established 
from that that we are still with, and hopefully, maybe, we have 
turned the corner on it now. But we are still trying to deal 
with it.
    Mr. Carney. Thank you.
    Mr. Rabkin, in your testimony you have basically two 
recommendations for improving GAO's interaction with DHS. You 
want to be able first, if I am reading this correctly, to be 
able to deal directly with program officials at the initial 
entrance conference. Is that correct?
    Mr. Rabkin. Correct, after the initial entrance conference.
    Mr. Carney. After, and then where the department counsel 
believes it necessary to review certain documents, you want 
this only to happen on a very rare, exceptional basis. Is that 
correct?
    Mr. Rabkin. That is correct.
    Mr. Carney. OK.
    Undersecretary Schneider, can you agree to both these 
requests today?
    Mr. Schneider. No, sir, and I have spent a lot of time 
looking at those two recommendations. I agree that for the 
majority of the instances that GAO ought to be able to deal 
with the program people after they have had the initial 
entrance conference. I believe in the majority of cases that 
should not be an issue.
    I also agree that if there are concerns, they can involve 
DHS liaison organizations either at the headquarters or in the 
operational components. I think that ought to be the general 
operating rule. And we ought to be able to figure out which 
ones they are. Certain types of audits or reviews require a 
little closer involvement or coordinators. This ends up being 
the issue which people refer to as ``pre-decisional'' or ``pre-
deliberate,'' where it is basically analysis as opposed to 
facts.
    Some of the cases or efforts where there have been problems 
have revolved around those types, as opposed to a straight 
effort looking at a communications system or something of the 
like.
    I also think that in general the second recommendation that 
documents ought to be provided directly kind of follows with 
the first. For the most part, that should be the normal 
practice. There are going to be some exceptions. So that is why 
my initial response to your question--would I agree to do that 
today?--not across the board.
    And that is why I think it ends up being the judgment of 
the people to know, based on the nature of the effort being 
looked at, whether or not it ought to be, hey, straight to the 
program people after the initial entrance meeting, or whether 
or not it is going to require special considerations and 
special reviews.
    And if it does, it ought to be able to be done on an 
expeditious basis. That is not an excuse, in my mind, for the 
lack of a timely response.
    Mr. Carney. So the judgment will be made by the same people 
that have delayed the process so far?
    Mr. Schneider. No. That is where our system is not working. 
We have to figure out a better way so that these issues get 
visibility fast. I believe that at the operational component 
level, if they can't resolve it, I can resolve it. If an issue 
has surfaced, OK--and this is where this liaison office in an 
operational component is a two-edged sword, frankly.
    I indicated earlier that last week I met with senior folks 
of each of the operational components. What they told me was 
this: whether it is the IG or the GAO, if they go off and they 
start dealing with program people directly, if you will, that 
is fine. And maybe that will work fine.
    But then what happens if those people out there--and I am 
talking about geographically dispersed, as opposed to within 
eyeball sight within D.C.--for whatever reason, don't provide 
the information. How does leadership find out about it? Well, 
leadership would normally rely on the liaison to get the 
feedback. Well, if you don't have the right mechanisms in place 
by which program people dealing directly with the IG or the GAO 
are providing that information, where discrepancies or issues 
or conflicts are coming up, then how is leadership supposed to 
respond?
    So I think there is a clear middle of the road here where 
for most cases they can deal directly and should be able to 
deal directly with the program people to speed things up, and 
that somehow or other we have these feedback mechanisms in 
place so that whether it is the operational component liaison 
or whether it is my liaison at headquarters, we have visibility 
to these areas where we are having difficulty providing the 
information.
    And so we can act on it and jump on it, whether I keep a 
punch list or whether the head of ICE or CBP keeps a punch 
list, and we start working them off, and make sure they get 
done quickly. That is one of the management schemes. So that is 
why unfortunately we have a tendency to focus on the 1 percent, 
OK? The exceptions, as opposed to establishing the general 
operating principles that by and large things ought to move 
quickly. There doesn't need to be special handling.
    Mr. Carney. Right. I understand. To say it is 1 percent I 
think really underestimates the problem.
    Mr. Rogers, any more questions? No further questions?
    Mr. Perlmutter?
    Mr. Perlmutter. Just a follow-up. I think it is incumbent 
on the investigative arm, whether it is the inspector general's 
office or the GAO--and I think what I did hear you agree to is 
that the buck is stopping with you. And so if there is a 
problem, they are not getting a response--somebody delayed; 
somebody stonewalled; somebody has just forgotten about it--it 
can come up through your channels from ICE or CBP or FEMA or 
whatever, but it also can come up through the investigators, 
the auditor's channel and come over to you and say, ``What is 
going on here? Why haven't we gotten a response?''
    Mr. Schneider. Yes, sir. That management directive clearly 
states that I am in charge of this thing. I think I said it 
earlier. I am not satisfied, if you will, that I have been 
doing a good enough job of getting visibility into the detailed 
issue so I can jump on them.
    Mr. Carney. Mr. Rabkin?
    Mr. Rabkin. In response to Mr. Perlmutter's comment and Mr. 
Perlmutter's question, and the earlier discussion of GAO having 
access to program officials out in the field. If the field 
program officials are reluctant or refuse to provide us 
information, I think that fact will get up the chain quickly. 
Our folks will come back, call their managers, and let us know 
about it. We will call the liaisons and we will work it up the 
chain of chain command.
    I think there is another concern here, perhaps, and that is 
that DHS program officials will be too forthcoming with 
information. That is fine with us, but maybe the department 
needs to know just what did you give GAO or the IG, and how 
much did you give them. And maybe there is some reasonable 
concern there. Was it the latest policies? Was it the latest 
information? Did you give them enough context so that the 
auditors will understand what the information means?
    I think that DHS and the program officials in the field can 
have their own conversations about that and ensure that we get 
full information. So I think they can work that separately. I 
really don't think it is an issue. I understand that there may 
be isolated cases where we shouldn't be talking directly to a 
program official and they may want to have somebody there. We 
have done this in the past. It has always worked out fine, 
whether it is here in Washington or anywhere in the field, 
including overseas. So we are willing to accept that.
    Mr. Carney. Mr. Rogers, any further questions?
    Mr. Perlmutter?
    I thank the witnesses for their valuable testimony and the 
members for their questions. Members of the subcommittee may 
have additional questions for the witnesses. We ask that you 
respond expeditiously in writing to those questions.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:18 a.m., the subcommittee was adjourned.]


            Appendix I: Key GAO Audit and Access Authorities

                              ----------                              

GAO's Audit and Evaluation Authority:
    GAO has broad statutory authority under title 31 of the United 
States
    Code to audit and evaluate agency financial transactions, programs, 
and activities. Under 31 U.S.C. Sec. 712, GAO has authority to 
investigate all matters related to the receipt, disbursement, and use 
of public money.
    Section 717 of title 31, U.S.C., authorizes GAO to evaluate the 
results of programs and activities of federal agencies, on GAO's own 
initiative or when requested by either house of Congress or a committee 
of jurisdiction. Section 3523(a) of title 31 authorizes GAO to audit 
the financial transactions of each agency, except as specifically 
provided by law.

GAO's Access-to-Records Authority:
    To carry out these audit and evaluation authorities, GAO has a 
broad statutory right of access to agency records. Under 31 U.S.C. 
Sec. 716(a), federal agencies are required to provide GAO with 
information about their duties, powers, activities, organization, and 
financial transactions. When an agency does not make a record available 
to GAO within a reasonable period of time, GAO may issue a written 
request to the agency head specifying the record needed and the 
authority for accessing the record. Should the agency fail to release 
the record to GAO, GAO has the authority to enforce its requests for 
records by filing a civil action to compel production of records in 
federal district court.
    A limitation in section 716, while not restricting GAO's basic 
statutory right of access, acts to limit GAO's ability to compel 
production of particular records through a court action. For example, 
GAO may not bring such an action to enforce its statutory right of 
access to a record where the President or the Director of the Office of 
Management and Budget certifies to the Comptroller General and Congress 
(1) that a record could be withheld under one of two specified 
provisions of the Freedom of Information Act (FOIA) \1\ and (2) 
disclosure to GAO reasonably could be expected to impair substantially 
the operations of the government.
---------------------------------------------------------------------------
    \1\ The Freedom of Information Act, 5 U.S.C. Sec. 552, as amended, 
generally requires agencies to disclose documents to the public, 
subject to certain specified exemptions.
---------------------------------------------------------------------------
    The first prong of this certification provision requires that such 
record could be withheld under FOIA pursuant to either 5 U.S.C. 
Sec. 552(b)(5), relating to inter-agency or intra-agency memorandums or 
letters that would not be available by law to a party other than an 
agency in litigation with the agency, or 5 U.S.C. Sec. 552(b)(7), 
relating to certain records or information compiled for law enforcement 
purposes.\2\
---------------------------------------------------------------------------
    \2\ More specifically, this exemption category relates to records 
or information compiled for law enforcement purpose, but only to the 
extent that the production of such law enforcement records or 
information (A) could reasonably be expected to interfere with 
enforcement proceedings; (B) would deprive a person of a right to a 
fair trial or an impartial adjudication; (C) could reasonably be 
expected to constitute an unwarranted invasion of personal privacy; (D) 
could reasonably be expected to disclose the identity of a confidential 
source, including a state, local, or foreign agency or authority or any 
private institution which furnished information on a confidential 
basis, and, in the case of a record or information compiled by criminal 
law enforcement authority in the course of a criminal investigation or 
by an agency conducting a lawful national security intelligence 
investigation, information furnished by a confidential source; (E) 
would disclose techniques and procedures for law enforcement 
investigations or prosecutions or would disclose guidelines for law 
enforcement investigations or prosecutions if such disclosure could 
reasonably be expected to risk circumvention of the law; or (F) could 
reasonably be expected to endanger the life or physical safety of any 
individual.
---------------------------------------------------------------------------
    The second prong of the certification provision, regarding 
impairment of government operations, presents a very high standard for 
the agency to meet. The Senate report on this section 716 limitation 
stated:
        ``As the presence of this additional test [the second prong] 
        makes clear, the mere fact that materials sought are subject to 
        5 U.S.C. Sec. 552(b)(5) or (7) and therefore exempt from public 
        disclosure does not justify withholding them from the 
        Comptroller General. Currently GAO is routinely granted access 
        to highly sensitive information, including internal memoranda 
        and law enforcement files, and has established a fine record in 
        protecting such information from improper use or disclosure. 
        Thus, in order for the certification to be valid, there must be 
        some unique or highly special circumstances to justify a 
        conclusion that possession by the Comptroller General of the 
        information could reasonably be expected to substantially 
        impair Government operations.'' \3\
---------------------------------------------------------------------------
    \3\ S. Rep. No. 96-570, at 7-8 (1980).
---------------------------------------------------------------------------
    The committee report also points out that the Comptroller General's 
statutory right of access to agency records is not diminished by the 
certification provisions of the legislation. The certification simply 
allows the President or Director of the Office of Management and Budget 
(OMB) to preclude the Comptroller General from seeking a judicial 
remedy in certain limited situations.\4\
---------------------------------------------------------------------------
    \4\ Id. at 7.


        Appendix II: Letter from the Honorable Paul A. Schneider

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                      Appendix III: For the Record

                              ----------                              


                   Additional Questions and Responses
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Questions from the Honorable Christopher P. Carney, Chairman, 
       Subcommittee on Management, Investigations, and Oversight

    Question 1.: What is the Department's understanding of the 
Inspector General's (IG) role within the Department? Please answer the 
following questions, and if your answer is in the negative please 
explain the basis for it.
    a. Do you believe that the IG can interview any Department employee 
in private without notifying his or her superior or any liaison 
officer? If not, why not?
    Response: Yes, however, if the employee wants someone present they 
should be allowed to do so. There may also be limited circumstances 
where it is appropriate to have a Departmental representative present 
for interviews with the OIG to ensure that sensitive information is 
identified and afforded proper protections. In evaluating such 
situations, we carefully consider the employee's rights under the 
Whistleblower Protection Act and other related authorities.

    b. Do you agree that asking employees to report any contact by the 
IG to their superiors will chill their willingness to speak openly with 
the IG?
    Response: Employees are not required to report contact with the OIG 
to their supervisors, and DHS does not take action to interfere with, 
impede or hinder employees' contact with the IG.

    c. Do you believe requiring a representative of management or an 
audit liaison to sit in on an interview with the IG would create a 
chilling affect on an employee's willingness to talk openly and 
completely?
    Response: Representatives of management or audit liaisons do not 
generally sit in on OIG interviews with Departmental employees, and DHS 
does not take action to interfere with, impede, or hinder employees' 
contact with the IG.

    d. Do you believe that all Department employees should cooperate 
fully with the IG and provide prompt, complete, and direct access to 
any materials or information requested?
    Response: Yes, all employees must cooperate with the Inspector 
General in accordance with laws and authorities. This is consistent 
with the guidance provided in the management directives.

    e. Do you agree that the Department should promptly provide the IG 
with all requested materials--including draft, privileged, and 
classified--without routing them through an intermediary? If not, why 
not?
    Response: IG engagements are largely characterized by extensive 
cooperation between the Department and the IG, and DHS routinely makes 
thousands of documents widely available to the OIG. Few audits entail 
review of materials by the Department before they are given to the OIG. 
For instance, the OIG had direct access to departmental documents and 
information during the numerous Hurricane Katrina investigations. There 
were no filters between the OIG and these Katrina-related documents. 
Indeed, the Inspector General indicated that he views the Katrina 
investigations as a highlight of cooperation between the OIG and DHS.
    In limited circumstances, it makes sense--for both the Department 
and the IG--to recognize exceptions from these general practices. For 
example, even though the attorney-client privilege is not waived by 
providing documents to the OIG (since the OIG is part of the Executive 
Department), it is appropriate to identify documents as privileged 
before they are transmitted, so that the OIG may act accordingly in 
preparing its report. Also, there may be other instances where 
accountability and prudent management practices dictate that DHS 
coordinate its production of documents to the OIG through a central 
unit. In any case, DHS will continue to work with the OIG to ensure 
that documents are produced in a timely fashion in all circumstances.

    f. Do you agree that the Department should refrain from taking any 
action that could chill an employee or contractor's communication to or 
cooperation with the IG?
    Response: The Department encourages full and complete cooperation 
by employees and contractors with the OIG and does not engage in 
activities which will inhibit communications to or cooperation with the 
OIG. The Department, through its Management Directive, requires all 
Departmental employees to cooperate fully with the OIG by disclosing 
complete and accurate information pertaining to matters under review--a 
perspective recently echoed by the Secretary and reflected in public 
remarks. Indeed, we do not take any actions which would interfere with, 
impede, or hinder communications to or cooperation with the IG; such 
activities would not be tolerated.

    g. Do you agree that the IG's rights and responsibilities extend to 
Department contractors and grantees?
    Response: Access to contractor records is governed by statute and 
regulation. Section 254d of Title 41, U.S. Code and Section 2313 of 
Title 10, U.S. Code authorize ``the head of an agency, acting through 
an authorized representative. . .to inspect the plant and audit the 
records of. . .a contractor performing a cost-reimbursement, incentive, 
time-and-materials, labor-hour, or price redeterminable contract, or 
any combination of such contracts. . . .'' Both statutes separately 
provide that an Inspector General ``may require by subpoena the 
production of records of a contractor, access to which is provided for 
that executive agency by [the language above].''
    The Federal Acquisition Regulation (FAR) has implemented 41 U.S.C. 
Sec. 254d specifically provides that ``the Contracting Officer, or an 
authorized representative of the Contracting Officer, shall have the 
right to examine and audit all records and other evidence sufficient to 
reflect properly all costs claimed to have been incurred or anticipated 
to be incurred directly or indirectly in performance of this contract. 
This right of examination shall include inspection at all reasonable 
times of the Contractor's plants, or parts of them, engaged in 
performing the contract.'' The scope of examination is limited to some 
but not all contract types, and does not appear to extend to interviews 
of contract personnel.
    The FAR clause also authorizes access for the Comptroller General 
of the United States. No provision is made for audit access by an 
Inspector General. Neither the Defense Federal Acquisition Regulations 
Supplement nor the Homeland Security Acquisition Regulation (HSAR) 
further implements 10 U.S.C. Sec. 2313 and 41 U.S.C. Sec. 254d, 
respectively, or the FAR. In order to develop a similar standard 
contract clause for audit access by OIG, as was recommended by OIG in 
the National Security Cutter audit, the Department would be required to 
first publish the clause in the HSAR after notice and public comment.
    With regard to grantees, the OIG is responsible for overseeing 
processes and parties related to the management and financial 
operations of DHS. The Office of Inspector General Fiscal Year 2007 
Annual Performance Plan states that the Office of Audits is responsible 
for examining the methods employed by agencies, bureaus, grantees and 
contractors in carrying out essential programs and activities. 
Recipients of Disaster Assistance grants are monitored by the Office of 
Disaster Assistance Oversight, which ensures that disaster relief funds 
are being spent appropriately, while identifying fraud, waste, and 
abuse. Furthermore, any allegations of criminal, civil and 
administrative misconduct involving DHS employees, contractors, and 
grantees fall under the jurisdiction of the OIG Office of 
Investigations. By accepting funding from the Department, grantees 
agree to hold themselves to the same standard of integrity and 
accountability held to the Department itself.

    Question 2.: How does the GAO's right to documents and information 
differ from the IG's?
    Response: GAO and the OIG operate under different statutory 
authorities, granting them different rights of access and recognizing 
their different operational missions. In addition, the OIG is part of 
the Department as well as the Executive Branch while the GAO is part of 
the Legislative Branch. DHS must exercise proper precautions before 
releasing information outside the Department. For example, we must 
ensure that sensitive information is properly marked and handled 
accordingly, so that it is not disclosed inappropriately in the public 
domain.

    Question 3.: The IG and the GAO have both expressed that their 
primary concern with the Department has been an undue delay in 
providing them with information.
    a. Since the Department is in the end providing most, if not all, 
of the requested information, what is the cause of the delays, and what 
does the Department hope to accomplish through them?
    Response: The Secretary has made clear that Departmental personnel 
are expected to provide requested information in a timely manner, 
without unnecessary delays, in accordance with proper authorities and 
procedures. Since the inception of DHS on March 1, 2003, the Department 
has provided substantial assistance and support to GAO in publishing 
over 580 reports and testimony regarding the Department. Currently, 
there are approximately 300 open GAO audits of DHS. Similarly, since 
October 1, 2004, the Department has provided substantial assistance and 
support to OIG which has conducted thousands of investigations of DHS 
and issued over 1,000 Management and Investigative Reports. This level 
of oversight would not be possible without DHS cooperation. But it also 
results in delays when employees are trying to do their jobs and 
respond to this level of GAO investigation.
    That being said, we must do a better job of providing information 
to GAO and OIG in a timely manner.

    b. To the extent the Department's General Counsel or others want to 
review the information, what harm is there in allowing them to do so at 
the same time as the IG or the GAO?
    Response: DHS does not require that all documents be reviewed 
before they are turned over. DHS produces thousands upon thousands of 
documents to the OIG and GAO each year. However, as the Secretary 
previously noted, there is a professional responsibility to review 
certain documents before they are disclosed to ensure that personal 
information, legal principles, and national security information are 
identified. In those instances, it would not be prudent--from a 
management or legal perspective--to release such materials before 
underlying sensitivities and legal issues related to such information 
could be identified. A centralized review of documents can also ensure 
that disclosures are consistent and complete and that all documents are 
properly marked in response to multiple requests.

    c. Under what circumstances is it appropriate for the Department to 
review documents before providing them to the IG?
        i. For what purposes would the Department do this?
    Response: As discussed in previous answers, in certain 
circumstances, DHS has an obligation to review documents to ensure that 
personal information, legal principles, and national security 
information is protected. A centralized review of documents can also 
ensure that disclosures are consistent and complete and that all 
documents are properly marked in response to multiple requests. 
Moreover, it is prudent--for both the Department and OIG--to 
appropriately identify and mark documents as sensitive before they are 
transmitted to the OIG, so that the OIG may act accordingly in 
preparing its report. DHS will continue to work with the OIG to ensure 
that documents are produced in a timely fashion.

    d. Under what circumstances is it appropriate for the Department to 
review documents before providing them to the GAO?
        i. For what purposes would the Department do this?
    Response: In certain circumstances, DHS has an obligation to review 
documents to ensure that personal information, legal principles, and 
national security information is protected. A centralized review of 
documents can also ensure that disclosures are consistent and complete 
and that all documents are properly marked in response to multiple 
requests. Moreover, it is prudent to appropriately identify and mark 
documents as sensitive before they are transmitted to the GAO, so that 
the GAO may act accordingly in preparing its report. DHS will continue 
to work with the GAO to ensure that documents are produced in a timely 
fashion.

    Question 4.: In his prepared testimony, Mr. Rabkin said ``DHS has 
not made its management or operational decisions transparent enough to 
allow Congress to be sure that the department is effectively, 
efficiently, and economically using its billions of dollars of annual 
funding.''
        a. Do you agree with this statement, and if not why not?
        b. What are you going to do to address this?
    Response: During his February 8th Congressional testimony, the 
Secretary stated that cooperation with the GAO is imperative. The 
Secretary has already acknowledged that that Department's 
responsiveness is neither what it should be nor as timely as it could 
be. He has also acknowledged the need for greater information flow to 
Congress as a top priority and has required that employee performance 
reviews be linked to individual responsiveness to such requests.
    Looking ahead, we are examining ways to improve the speed by which 
documents and information flow. This includes improving communication, 
training and outreach to the employees of the Department, revamping the 
organizational structure and placement of liaison offices at 
headquarters and in Components, and providing additional guidance to 
Department employees on how to interact with the GAO.

    Question 5.: In March 2004, the Department developed Directive 
#0820 which contains policies and procedures for interacting with the 
GAO. Please explain the processes for implementing this Directive.
    Response: Management Directive 0820 establishes Department of 
Homeland Security policy and procedures on relations with the GAO. This 
Directive requires all employees of DHS to cooperate with all employees 
of GAO to the fullest extent consistent with the responsibilities of 
DHS and its Components.
    The Department Liaison Office and component liaisons offices 
facilitate the GAO's efforts to gain information from the Department. 
The Liaison Office fosters the GAO's access to materials by providing 
direction and identifying knowledgeable employees with relevant and up-
to-date information. In addition, the Liaison Office makes arrangements 
for the GAO's physical access to DHS facilities and personnel at 
Headquarters and in the field office locations. It also ensures 
comprehensive and consistent responses to GAO requests, and identifies 
sensitive information (where necessary) for proper marking and 
handling. Moreover, the Liaison Office makes arrangements for the GAO's 
entrance and exit conferences with Department personnel. Further, the 
Liaison Office provides an early-warning mechanism for senior DHS 
management to identify issues that might arise during a GAO engagement 
or audit.

    a. How has the Directive been implemented in DHS?
    Response: On behalf of the Secretary, the Under Secretary for 
Management has overall management authority for all DHS relations with 
GAO and responsibility for implementation of all aspects of this 
Directive through DHS. The Under Secretary for Management carries out 
this responsibility through the Chief Financial Officer (CFO), in 
coordination with senior DHS officials.
    The CFO has designated a Departmental GAO Liaison (DGL) to be the 
primary management official within DHS responsible for implementing 
this Directive and managing all matters involving relations between GAO 
and DHS.

    b. Do you have a sense as to whether program officials and 
component liaisons have interpreted the Directive to mean that lawyers 
are to review almost every document requested before it can be provided 
to GAO?
    Response: The Management Directive does not require DHS counsel to 
review every document before it is turned over to GAO.

    c. Do you interpret the Directive as written or implemented to be 
that attorneys are to review all documents before providing them to 
GAO?
    Response: No.

    d.  Who in the Department is responsible for periodically reviewing 
this Directive and revising it when appropriate?
    Response: The Under Secretary for Management is the primary 
official within DHS responsible for implementing this Directive and is 
authorized to manage, on behalf of the Secretary, all matters involving 
relations between GAO and DHS, including all DHS Components, as well as 
the review and revision of the Management Directive. We are currently 
reviewing the Department's guidance, procedures, and training with 
respect to these issues.

    Question 6.: In your testimony you said that after talking to 
representatives from all Department components, you found that ``there 
is a general feeling that information provided will be used for 
`Gotchas.' '' Does this mean that Department employees are reluctant to 
cooperate with the IG or the GAO?
    a. Would you agree that this is a problem?
    Response: No, Department employees are not reluctant to cooperate 
with the IG or the GAO, but there has been concern in the past about 
how the information will be used.

    b. What can you do to resolve it and convey to the Department's 
employees the important function both GAO and the IG play in a well-run 
department?
    Response: I am striving to improve communication and guidance to 
the Department's employees, and engage leadership to focus on the 
importance of the IG and GAO to a well-run department.

    Question 7.: When is it appropriate for the Department to refuse to 
provide information to the GAO?
    Response: Management Directives identify situations where more 
detailed review is required prior to release of information to the GAO. 
For example, this might include documents related to ongoing criminal, 
civil or administrative investigations or proceedings, law enforcement 
sensitive information, deliberative information, intelligence 
information, and documents of a third-party or agency. In many cases, 
documents may ultimately be produced following a detailed review.

    a. Would you agree that in such situations, the Department should 
clearly and concisely tell the GAO that it is refusing to provide 
information, and why?
    Response: Yes. And the Department has done so on those few 
occasions where this has happened.

    Question 8.: GAO has some fundamental concerns about the processes 
the Department has put in place for dealing with the GAO. Are you 
willing to take a fresh look at all these processes and address the 
GAO's concerns?
    Response: Yes.

    Question 9.: What are your impressions of the cooperation that your 
agency's components have with GAO, including the role of the 
Department's Office of General Counsel, compared with your prior 
experience in DOD?
    Response: It is difficult to directly relate my experiences at the 
Department of Defense (DOD) with those at DHS, because these are two 
agencies at very different stages of development. The Department of 
Homeland Security is still in its earlier stages of development.
    That said, the level of cooperation that exists between DHS and GAO 
is not as great as that between the GAO and the DoD.

    Question 10.: Secretary Chertoff sent a memorandum to all his 
component heads directing them to take corrective actions to improve on 
the Department's ability to deliver past due reports and answer 
Congressional questions in a timelier manner. Secretary Chertoff has 
stated in a recent testimony that he is making this issue a priority. 
Please provide specific plans on how the Department's leadership will 
ensure that all components of the Department will respond in a timelier 
manner.
    a. Please identify any performance goals or benchmarks that both 
Congress and the Department's leadership can use to measure any 
improvement?
    Response: As of September 1, 2007, the Executive Secretariat's 
office has this year managed 78 individual Questions for the Record 
(QFR) sets issued by House and Senate Authorization Committees 
following a formal hearing. The Office of the Chief Financial Officer 
managed 16 individual QFR sets issued by the House and Senate 
Appropriations Committees. These 94 sets represent 2,630 individual 
questions. 71 of these 94 sets have been answered, cleared by the 
Office of Management and Budget, and returned to the requesting 
Committee. Our average response time for QFR sets is 33 business days.
    All letters sent to DHS by a Member of Congress are answered with 
at least an interim response in 10 business days.
    In 2007 (to date), one-time and recurring reports required by 
authorizing legislation total 86, with one-time and recurring 
appropriation reports totaling 460. As an educated guess, easily well 
over 100 reports annually require an average of more than 300 man hours 
to produce at DHS. Many more still consume a bare minimum of 100 hours 
prior to transmittal.

    b. Please describe with specificity any programmatic changes you 
plan to make and what impact will these changes have.
    Response: Performance in this area is tracked and monitored by the 
Department's Management.

    c. Please provide the methods the Department plans to use to inform 
Congress of any changes or improvements in the Department's 
performance.
    Response: Since January, we have been sending on average, one or 
two reports to the Hill each day. Our QFR response has improved 
dramatically from last year. The results of the Department's leadership 
becoming engaged are clear. Responding to Congress is a priority and we 
are working to complete all requests in a timely manner.

    d. The memo addresses being more responsive to Congress but does 
not address providing timely information to GAO. As you know, GAO is an 
arm of Congress. What will the Department do to convey its commitment 
to be more responsive to GAO?
    Response: The need to improve the Department's responsiveness to 
the GAO is being stressed by the Department's leadership.

    Question 11.: In July 2006, the IG provided the Deputy Secretary 
with a letter detailing the role of the IG and a series of frequently 
asked questions. Please answer the following questions concerning this 
letter:
    a. What happened to it after it was given to the Deputy Secretary?
    Response: It was reviewed by several organizations within the 
Department.

    b. Did the General Counsel's office review it?
    Response: Yes.

    c. Was any response--formal or informal--provided to the IG?
    Response: The draft memorandum has served as one of the bases for 
discussion between senior Department officials and the IG about the 
proper way to communicate the Department's expectations regarding IG 
access to DHS's employees. That discussion is ongoing.

    d. Were there were any discussions between Department officials and 
the IG regarding potential concerns with the letter?
    Response: Yes.

    e. If there were no such discussions, why not?
    Response: There were discussions.

        i Was it appropriate not to hold such discussions if the 
        Department had concerns about its contents?
    Response: There has been ongoing discussion regarding the details 
of the draft memoranda.

    f. Will you recommend that the letter be sent out, and if not why 
not?
    Response: I would not recommend the memorandum written be sent out. 
I do not agree with every proposition in the draft memorandum, 
including the strict prohibition on any review of documents produced to 
the IG, and on any assistance during witness interviews.

    Question 12.: What steps have you taken since this hearing to 
communicate the importance of cooperation with the IG and the OIG to 
your colleagues and subordinates?
    Response: I have discussed this matter with the leadership at DHS 
headquarters and I have raised the issue with the representatives of 
the DHS operating components at the Department's Management Council, 
which I chair.

    Question 13.: What steps have you taken since this hearing to 
communicate Congress's ongoing concern over the GAO and the IG's 
difficulties to your colleagues and subordinates?
    Response: I have discussed this matter with the leadership at DHS 
headquarters, and I have raised the issues with the representatives of 
the DHS operating components at the Department's Management Council, 
which I chair.

    Questions from the Honorable Michael D. Rogers, Ranking Member, 
       Subcommittee on Management, Investigations, and Oversight

    Question 14.: As the Under Secretary responsible for management and 
budgets across the Department of Homeland Security, please provide for 
the following information regarding the Department's canine teams:
    a. Any DHS component which currently uses canine teams (in addition 
to CBP, USSS, and TSA);
    b. A summary of each canine training program operated by a DHS 
agency;
    Response: USSS
    The United States Secret Service (USSS) has 57 Explosive Detection 
Canines (w/57 handlers). The USSS has 14 Emergency Response Canines (w/
14 handlers). USSS has a total of 71 Canine Teams.

    ICE
    The ICE Federal Protective Service (FPS) currently maintains 60 
canine explosives detection dog teams strategically located across the 
country.

    CBP
    As of March 6, 2007 CBP employs 1,234 canines and canine teams.

    USCG
    The Coast Guard has 18 teams (one handler and one canine per team).

    TSA
    TSA's canine program deploys only explosives detection teams under 
the National Explosives Detection Canine Training Program (NEDCTP). It 
is operated cooperatively in partnership with local law enforcement 
agencies and transportation industry stakeholders. The canine handlers 
come from local law enforcement (airport/mass transit) agencies. 
Currently, TSA has 441 teams deployed in aviation and mass transit 
systems, with a target of 478 deployed teams by the end of fiscal year 
07.

    Shown below are the funding levels in fiscal year 07 and those 
requested for fiscal year 08, for each DHS agency's canine program.
    c. The Fiscal Year 2007 funding level and Fiscal Year 2008 budget 
request for each DHS agency's canine program;

    USSS
    Overall Approved Budget for Canine Program fiscal year 07: 
$241,364.
    Overall Proposed Budget for Canine Program fiscal year 08: 
$371,029.

    ICE
    The FPS Canine Program is approximately $7.74 million in fiscal 
year 2007, or $129,000 per team. This includes the full cost of the FPS 
inspector and the cost of care, feeding and annual recertification 
training for the dog. The fiscal year 2008 cost will be approximately 
$8.05 million.

    CBP
    While there is no discrete budget for canine enforcement, CBP 
estimates a projected spending level for fiscal year 2007 of $130.7 
million and a requested funding level for fiscal year 2008 of $176.3 
million.

    USCG
    The Coast Guard's recurring annual budget for one Canine Detection 
Team (CDT) is $9,600 per canine and $73,000 per handler (handlers also 
perform other MLE/FP duties as needed). The total funding level for 18 
teams is $1.5 million.

    TSA
    Fiscal year 07 funding is $32 million; fiscal year 08 funding is 
$35.5 million.

    d. The number of canines currently utilized by each DHS agency, and 
an assessment of the existing unmet need in each DHS agency for 
additional canines; and
    USSS: At this time the USSS is short three (3) Explosives Detection 
Canines.
    ICE: The FPS will not require any additional canine teams for 
fiscal year 08.
    CBP: CBP has no unmet needs for canines in fiscal year 2008.
    USCG: Coast Guard currently has a sufficient number of CDTs.
    e. An assessment of the percentage of detection canines utilized by 
DHS which is bred domestically compared to the percentage which is 
acquired from vendors overseas.
    The USSS utilizes Belgian Malinois canines. All of the USSS canines 
are purchased from an American company, the Vohne Liche Kennels, in 
Indiana. The Vohne Liche Kennels acquires its dogs from Germany. None 
of the canines are bred domestically.
    The FPS explosives detection dog teams are trained at Auburn 
University. Auburn University provides the dog at the time team 
training begins. A check of the University records indicates that 19 of 
the FPS dogs were bred domestically and 41 were bred overseas.
    None of CBP's dogs are purchased from overseas vendors; however 
most of the domestic vendors that supply dogs to CBP utilize and 
procure a portion of their dogs from overseas kennels.
    The U.S. Coast Guard acquires all canines from CBP.

    You have had a long career in the Federal Government, including 
serving as a Principal Deputy Assistant Secretary of the Navy.
    Question 15.: Based on your past experience, what are some of the 
differences between the process at the Defense Department compared to 
the process at DHS for addressing inquiries from the GAO and DoD 
Inspector General?
    Response: It appears in general that the major difference is that 
there are fewer reviews of material by DOD before it is released to GAO 
and DOD Inspector General. The other difference is the role of the 
liaison office (at the equivalent to the operational component level) 
after the start of a review. In DOD, it appears they have a very small 
role after the start of a specific review.

    Question 16.: Are there any aspects to the way DoD responds that 
you have instituted, or plan to institute, at DHS?
    Response: We are looking at ways to expedite the flow of 
information to the OIG and GAO by streamlining the process prior to 
releasing the requested information.

    You point out in your statement (page 1) that the relationship 
between DHS and the Inspector General differs from its relationship 
with GAO.
    Question 17.:Could you please elaborate on this difference and 
explain the differences in procedure for the response by DHS to each?
    Response: GAO and the OIG operate under different statutory 
authorities, granting them different rights of access and recognizing 
their different operational missions. In addition, the OIG is part of 
the Department and thus the Executive Branch while the GAO is part of 
the Legislative Branch. DHS must therefore exercise proper precautions 
before releasing information outside the Department. For example, we 
must ensure that sensitive information is properly marked and handled 
accordingly, so that it is not released inappropriately in the public 
domain.

    The Subcommittee has been advised that when DHS employees meet with 
auditors, the supervisors of those employees may sit in on the 
meetings.
    Question 18: Is this the usual practice?
    Response: There is no requirement for the presence of a management 
representative or audit liaison at interviews. We encourage DHS 
employees to speak openly and frankly with auditors and to provide 
information. Indeed, Department representatives attend very few such 
meetings.
    There may be limited circumstances where it might make sense to 
have a Departmental representative present for interviews to ensure 
that sensitive information is identified and given proper protection. 
Just because a DHS liaison attends a meeting does not inhibit an 
individual's opportunity to convey important information. The presence 
of a Departmental representative is in no way designed to inhibit the 
free flow of information to auditors.
    When an employee requests a Department representative to accompany 
him/her to a meeting, we will consider such a request and honor it when 
appropriate. In evaluating such situations, we carefully consider the 
employees' rights under the Whistleblower Protection Act and other 
related statutes.

    Wouldn't the presence of a supervisor have a chilling effect on 
what an employee may say?
    Response: DHS does not require a supervisor to be present at an 
interview with auditors, and DHS does not take action to interfere 
with, impede, or hinder employees' communications.

    In your capacity, you oversee the Audit Liaison Office, which is 
housed within the Office of the Chief Financial Officer. The Audit 
Liaison Officer works with his or her counterparts in the Department's 
components to respond to requests from the GAO and Inspector General.
    Questions 19: Could you please elaborate on the roles and 
responsibilities of the Audit Liaison Officer at the Headquarters 
level? In the component agencies?
    Response: The role and responsibilities of the Headquarters Audit 
Liaison are spelled out in Management Directive 0820.

    Question 20: Do you believe the Audit Liaison Officer has 
sufficient authority over the liaison officers in the Department's 
components?
    Response: Yes. Pursuant to MD 0820, the Departmental GAO Liaison is 
the primary management official within DHS responsible for 
implementation of this Directive and authorized to manage, on behalf of 
the Secretary, all matters involving relations between GAO and DHS. The 
DGL is authorized to provide oversight and direction to all DHS 
Components relating to relations with and responding to GAO.

    Question 21.: Does the Audit Liaison Officer at DHS Headquarters 
have direct line authority over the audit liaison officers in the 
Department's component agencies? If not, why not? Would operations be 
improved if the Audit Liaison Officer had direct line authority?
    Response: The DGL does not have direct line authority over the 
component audit liaison officers, but has authority under the 
Management Directive to provide oversight and direction to all DHS 
components regarding relations with and responding to GAO.

    Question 22.: How many employees serve in the Office of the Audit 
Liaison Officer? Is this number sufficient?
    Response: The Office of the Audit Liaison Officer is sufficiently 
staffed. The Office consists of a Director and a staff of four 
management analysts, and will be adding an additional staff member. The 
DHS Audit Liaison Office relies upon the day-to-day work of the more 
than thirty component liaisons and other DHS employees handling the GAO 
and OIG interview and document requests, as well as the audit follow-up 
for implementation of GAO and OIG recommendations.

    Would additional staff improve the response time to GAO and the 
Inspector General?
    Response: No.

    You indicate in your statement (page 3) that the Department 
maintains Management Directives regarding its interaction with GAO and 
the Inspector General. You also state that the Directives are adequate, 
but the problem is in ``execution'' of the Directives.
    Question 23: When were these Directives issued?
    Response: The Management Directive on GAO is dated June 25, 2003 
and the Management Directive on the IG is dated June 10, 2004.

    Do you believe they should be updated?
    Response: In April, DHS started a review of all our Management 
Directives with the intent to update the directives as necessary to 
reflect current policy.

    Question 24: Do you know how these Directives compare to similar 
directives in other Federal Cabinet departments?
    Response: We have compared our Management Directive 0810.1, 
governing relations with the IG, with the equivalent directives issued 
by Treasury, Justice, Defense and Commerce. The DHS Management 
Directive is consistent with those of the other Executive Branch 
agencies.
    Common factors include:
        <bullet> Requiring that all employees cooperate fully with 
        their OIG and report any complaints of possible activities 
        violating law, rules, or regulations to the OIG;
        <bullet> OIG is to have access to all records, reports, audits, 
        reviews, documents, and other material available regardless of 
        the program and operation;
        <bullet> OIG is an independent and objective Component within 
        DHS responsible for investigating fraud, waste, and abuse 
        uncovered as a result of audits, evaluations, and inspections; 
        and is responsible for informing the Secretary and Congress of 
        serious problems, abuses, or deficiencies relating to programs 
        and operations within the Department.
    We have also compared DHS Management Directive 0820, governing 
relations with GAO, to the equivalent directives issued by the 
Treasury, Defense, Energy, and Commerce Departments. The DHS Management 
Directive is essentially consistent with the directives at these other 
agencies.

    Question 25.: Have you reviewed these Directives to assess whether 
they could be improved?
    Response: We are reviewing Management Directives 0810.1 and 0820.

    Question 26.: How are DHS employees made aware of these Directives, 
and how is their compliance with these Directives monitored?
    Response: Directives are posted on the DHS intranet Web site and 
made available to all DHS employees.
    Component heads are directly responsible for ensuring compliance 
with Management Directives 0810.1 and 0820. They are also responsible 
for assuring the widest possible dissemination of the Management 
Directives within their Component, and they may issue further 
instructions for implementing departmental policy related to the OIG 
within their Component.

    Question 27.: You indicate in your statement that there are 
``serious concerns'' with execution of the Directives. Could you please 
give examples of some of these concerns and what steps you are taking 
to address them?
    Response: As stated in my testimony, I am concerned that while the 
Management Directives provide a consistent process, the Department's 
components are not implementing or executing this guidance in a 
consistent manner across the entire Department. The use of liaison 
offices in each organization is inconsistent.
    Looking to the future, we are examining ways to improve speed by 
which documents and information flow. This includes improving 
communications, training, and outreach to employees across the 
Department, revamping the organizational structure and placement of 
these liaison offices, both at Headquarters and in the operational 
components, and providing additional guidance to Department employees 
on how to interact with the IG and GAO through further revising or 
updating instructions to personnel.
    Leadership needs to get involved at the right level, and if 
necessary, at the highest level.

    You indicate in your statement (page 3) that Departmental lawyers 
do not review every document and are not present in every interview.
    Question 28. When are departmental lawyers involved in the process 
of responding to requests from the GAO and Inspector General?
    Response: The vast majority of requests from GAO and the OIG are 
characterized by cooperation from Department, and very few entail legal 
review of responses to GAO and OIG requests. DHS produces thousands of 
documents to the OIG and GAO each year. As discussed in previous 
answers, a legal review of documents is appropriate in limited 
circumstances, including where there is a particular need to ensure 
that proper procedures are adhered to, specific information warrants 
appropriate safeguards, or disclosures must be consistent among various 
reviewing bodies. In certain circumstances, DHS counsel have a legal 
and ethical obligation to review documents to ensure that personal 
information, legal principles, and national security information are 
protected.
    Review of documents by counsel also ensures that disclosures are 
consistent and complete. A centralized review of documents can also 
ensure that disclosures are consistent and complete and that all 
documents are consistently marked in response to multiple requests.

    Question 29.: Are there standard criteria by which a determination 
is made when lawyers review documents and attend interviews? If so, 
what are those criteria? If not, why not?
    Response: Management Directive 0820 provides that DHS employees 
have the responsibility to review GAO document requests using the 
sensitive information checklist appended to the Directive, and when 
sensitive information is potentially implicated, request and follow the 
advice of counsel to ensure the legal obligations of DHS are met. If a 
response involves potential access to sensitive information on the 
checklist, e.g., classified, law enforcement or homeland security, and 
grand jury, the GAO coordinator for the Component possessing the 
information shall ensure the assistance of counsel is sought within 
that Component to ensure any legal issues are considered.

    You indicate in your statement (page 4) that the ``Secretary has 
already put in place a mechanism to create incentives for DHS officials 
to make information flow to Congress a priority, and has required that 
employee performance reviews be linked to individual responsiveness to 
such requests.''
    Question 30.: Could you please describe the mechanism the Secretary 
put in place and some of the incentives for DHS officials?
    Response: The attached memorandum contains the guidance the 
Secretary has issued.

    Question 31.: An employee's performance review generally contains 
many elements. How is responsiveness to Congressional requests weighted 
and considered?
    Response: It depends on how large of a role an individual has in 
responding to the congressional requesters. For a large number of 
people in the Department, they have no role in responding to the 
Congress, so it would not be a factor. For those in an area where there 
is extensive Congressional reporting, it would be a factor that would 
be considered by the person's supervisory chain of command.

    You indicate in your statement (page 4) that you are ``perplexed'' 
by GAO's complaints.
    Question 32.: Which of GAO's complaints do you believe have merit 
and which do not?
    Question 33.: Why do you think GAO feels so strongly about the 
difficulties GAO auditors claim they have in obtaining information from 
DHS?
    Response: We feel that the Department's cooperation with the GAO 
has been good. In light of that substantial cooperation, I testified 
that I was a bit perplexed by the level of GAO's complaint. We 
understand that GAO has had some complaints, but many of these 
complaints have been addressed and resolved. Nevertheless, we have 
taken notice that GAO still raises such concerns, and we understand we 
need to continue to strive towards improvements in order to ensure the 
timeliness of the Department's responsiveness. GAO's only complaint is 
that the Department is not timely in its response to its requests.

    Question 34.: What steps are you taking to improve the working 
relationship with GAO?
    Response: The Department is taking many steps to improve its 
responsiveness to GAO, including instituting better coordination among 
the Component's liaison officer and the Headquarters DGL. There should 
also be more frequent meetings with GAO and OIG at the Chief Financial 
Officer (CFO) level to identify specific and systematic issues, which 
the CFO and the Under Secretary for Management (USM) will address with 
DHS Management to improve the responsiveness of the Department.
    We are examining ways to improve the speed by which documents and 
information flow. This includes improving communication, training and 
outreach to the employees of the Department, revamping the 
organizational structure and the placement of liaison offices at 
headquarters and in Components, and providing additional guidance to 
Department employees on how to interact with the GAO.

    You indicate in your statement (page 5) that DHS has provided 
``information for over 250 OIG Management Reports, 1,350 OIG 
Investigative Reports, and 600 GAO reports and testimony.''
    Question 35.: Do you know how these numbers compare to other 
Federal agencies?
    Response: No.

    Question 36.: Can you estimate how many employee hours were 
required to provide this information?
    Response: The Department does not yet have a formal tracking 
process to calculate the hours spent or the costs of responding to 
particular requests. We receive requests for information from the GAO 
and OIG on a daily basis. Depending upon the nature of each request, 
time and resources are expended to perform research, solicitation of 
information from one or more DHS components, and drafting a response, 
which--depending upon the subject matter--can take anywhere from a few 
hours to several weeks or months. Following drafting of each response, 
senior leadership must review and, where appropriate, executive branch 
clearance must be obtained, adding more time.

    Question 37.: Do you know how many GAO and Inspector General audits 
and investigations are currently open within DHS?
    Response: Approximately 500 GAO and OIG audits are open throughout 
the Department with either ongoing audit work or open recommendations.

    You indicate in your statement (page 5) that DHS must respond to 88 
congressional committees and subcommittees. You also indicate that DHS 
provides approximately 2,000 briefings and hearing statements per year.
    Question 38.: Do you agree with the 9/11 Commission recommendation 
that Congress should centralize its oversight of DHS in one committee 
in the Senate and House of Representatives?
    Response: DHS takes very seriously its responsibility to protect 
the homeland--a responsibility that is of course shared with the 
Congress, among others. To further both of these responsibilities, the 
Administration has expressed it strong support for Congress adopting 
one of the 9/11 Commission's most important recommendations: to 
streamline congressional oversight of DHS. This would be one of the 
easiest and most direct ways that Congress could carry out our shared 
responsibility, by allowing DHS to focus more time and resources on its 
crucial mission of securing the homeland, while retaining an 
appropriate level of oversight.

    Question 39.: What impact does responding to 88 congressional 
committees and subcommittees have on departmental operations?
    Response: In my testimony I provided the major statistics. 
Supporting these efforts drives an extensive workload in the 
Department.

    You indicate in your statement (page 5) that DHS does ``not provide 
consistent guidance across the Department'' in how to respond to GAO 
and Inspector General inquiries.

    Question 40.: Could you please provide some examples of how this 
guidance is not consistent and what steps you plan to take to address 
this issue?
    Response: DHS is the result of the integration of 22 agencies. Many 
of the legacy organizations, such as the former U.S. Customs Service, 
the former Immigration and Naturalization Service, U.S. Secret Service, 
and U.S. Coast Guard had legacy processes regarding interactions with 
OIG and GAO; these processes are specific to their organization. We are 
working to integrate these processes and ensure that they support the 
execution of DHS Management Directives in order to provide proper and 
timely access to GAO and the OIG. Indeed, we are examining ways to 
improve the speed with which documents and information are produced in 
response to appropriate requests. This includes improving 
communications, training, and outreach to the fine employees of the 
Department; possibly revamping the organizational structure or 
placement of the Liaison Office; and providing additional or updated 
guidance to Department employees on how to interact with the OIG and 
GAO. We should make our expectations more clear to the people on the 
front lines.
    We are examining ways to improve the speed by which documents and 
information flow. This includes improving communication, training and 
outreach to the employees of the Department, revamping the 
organizational structure and the placement of liaison offices at 
headquarters and in Components, and providing additional guidance to 
Department employees on how to interact with the GAO.

    You indicate in your statement (page 5) that some of the component 
agencies in DHS ``are using procedures and practices that were from 
their parent organizations before they became part of DHS.''

    Question 41.: Which components are you referring to?
    Response: The former U.S. Customs Service, the former Immigration 
and Naturalization Service, U.S. Secret Service, and U.S. Coast Guard.

    Question 42.: In light of the Management Directives the Department 
issued, why do you think these components are still following 
procedures that date back before 2003 when the Department was created?
    Response: These legacy organizations had processes and regulations 
at the detail operational level, which are specific to their 
organization. In a similar vein, we are considering better ways to 
communicate our expectations regarding GAO and OIG inquiries to our 
employees.

    Question 43.: What steps are being taken to correct this issue?
    Response: We are examining ways to improve the speed by which 
documents and information flow. This includes improving communication, 
training and outreach to the employees of the Department, revamping the 
organizational structure and the placement of liaison offices at 
headquarters and in Components, and providing additional guidance to 
Department employees on how to interact with the GAO.

    You indicate in your statement (page 5) that ``the use of liaison 
offices in each organization is somewhat inconsistent.''
    Question 44.: Are the liaison offices in each component agency 
located within the same office organizationally, such as the Office of 
the Chief Financial Officer? If not, why not?
    Response: Depending upon the operational needs of each DHS 
component and the legacy structures of the components, the audit 
liaison offices are located in various parts of the component 
organizations, such as the Office of the Chief Financial Officer, the 
Office of Policy, and the Office of the Assistant Secretary.

    Question 45.: What steps are you taking to improve the consistency 
with which liaison offices are used across component agencies in DHS?
    Response: We are considering various ideas and options for the 
proper use of liaison offices throughout the Department. We want to 
make sure that there is an appropriate structure in place to provide 
proper and timely responsiveness to oversight requests. In addition, 
the liaison offices are critical to providing training and outreach to 
Department personnel in order to ensure that expectations are clear and 
guidance is implemented in a consistent manner. Also, liaison offices 
may be used as a mechanism to improve awareness of issues that might 
arise during GAO engagements.

    Question 46.: What training is provided to Audit Liaison Officers?
    Response: Through quarterly liaison meetings and daily interaction 
with the component liaisons, the DHS audit liaison office provides 
continuous training for the component liaisons. Using a ``best 
practices'' concept, component processes are shared across 
organizational lines to enhance the liaison process throughout the 
entire Department. In this way, the DGL can coordinate engagements 
throughout the Department, provide outreach by communicating the 
Department's guidance and expectations, and provide continuous training 
for component liaisons. Once again, we are considering options to issue 
guidance to liaison officers in an effort to ensure consistent 
application and execution of the Department's directives.

    On April 13, 2007, Chairman Thompson and Ranking Member King wrote 
to Secretary Chertoff regarding the Department's overdue reports for 
Congress.
    Question 47.: What is your role in the Department's preparation and 
review of reports requested by Congress?
    Response: My office reviews all reports prepared by DHS at the 
request of Congress. My role, as Under Secretary for Management is to 
approve and sign out appropriations reports to Congress. In some cases 
I also approve and sign some of the authorization reports depending on 
subject matter.

    Question 48.: Why does it take so long to prepare and submit a 
report?
    Response: Depending on the nature of the topic is for the report, 
it could take a while to collect and compile the necessary data.

    Question 49.: Why are there so many overdue reports?
    Response: Because there are many reports which require extensive 
data to be compiled and then reviewed before approval, many reports do 
not make the deadline. However, the significant volume of reports 
requested from the Department also adds to the timeline.

    Question 50.: What steps are you taking to reduce the backlog and 
improve the Department's responses to Congressional requests for 
reports and information?
    Response: The Secretary sent a memorandum to all component heads on 
February 7, 2007 which expressed his view about the Department's 
delivery of reports and responses to Congress in a timely and accurate 
manner. In the memorandum, direction was given to establish performance 
measures for employees as well as hold the leadership of that component 
responsible for overdue responses. The Department's management is aware 
of the issue and is working to track our performance.

    The Integrated Deepwater System Program (Deepwater) is a $24 
billion, 25-year acquisition program designed to replace and modernize 
the Coast Guard's aging and deteriorating fleet of ships and aircraft.
    The DHS Inspector General has released audits reflecting that the 
Coast Guard's Deepwater acquisition program has suffered from apparent 
mismanagement. It is imperative that the Coast Guard is provided with 
the highest quality and most capable equipment to continue to protect 
our Nation's ports, coasts and waterways. At the same time, though, it 
is important that the assets the Coast Guard acquires are procured in 
an efficient and cost-effective manner to ensure that taxpayer dollars 
are not spent in an irresponsible manner.
    Question 51.: How are you working with the Coast Guard to improve 
the contract oversight in the Deepwater program?
    Response: The Chief Procurement Officer (CPO) has been actively 
engaged in the oversight of the Deepwater program since the inception 
of the Department. Separate from the general oversight of the USCG 
Acquisition Operations, Deepwater has been the specific subject of 
numerous reviews by the CPO and CPO Staff. CPO and the Acquisition 
Oversight Staff have been part of every major review of the program 
beginning with the review of the updated ORD to account for changes in 
requirements brought on by the attacks of September 11, 2001. We have 
reviewed each change to the Program and each quarterly report to 
Congress as well. The CPO Acquisition Oversight staff participated with 
the Deepwater staff in several GAO and DHS OIG reviews conducted over 
the past 3 years. The DHS CPO was instrumental in advising USCG to seek 
outside assessment on the critical portions of the Deepwater 
acquisition. The DHS CPO Acquisition Oversight Team was one of the 
first offices outside USCG to review and comment on the application of 
Earned Value Management data on the program and sought refinement of 
several cost estimates as a result of that review. Reviews of the 
Deepwater program have been conducted by several levels of DHS 
Management and the CPO and CPO Acquisition Oversight staff have been 
intimately involved in each. The DHS CPO Acquisition Oversight Team 
closely reviewed, for example, the entire process for assessing and 
awarding the first Award Term for the Deepwater contract.

    Question 52.: What steps should DHS take in the short-run--and 
long-run--to ensure the Deepwater program is managed most efficiently 
and cost-effectively?
    Response: First and foremost, the DHS CPO is supporting the USCG in 
its implementation of the USCG Blue Print for Acquisition Reform. This 
initiative, begun by the Commandant shortly after assuming command, 
will fundamentally change the way that the USCG does business and will 
focus assets in the areas of requirements generation, program 
management, contracting and logistics where needed and when needed. DHS 
CPO supports the request to Congress by USCG to have personnel costs 
shifted from Deepwater specific appropriations to the general 
Operations Expense appropriation so as to give the USCG the flexibility 
to place human resources in the most efficient manner possible and no 
longer be constrained by rigid personnel limitations in program 
specific appropriations. The DHS CPO and the CPO's Acquisition 
Oversight Team will continue to engage the USCG at every level in the 
routine oversight activities involved in the review of Acquisition 
documents such as Acquisition Program Baselines, Acquisition Plans, and 
other selected contract documents. The Acquisition Oversight Team is 
part of the departmental executive review of each major action and 
attends every meeting involving Deepwater with DHS external 
organizations. As circumstances arise, the DHS CPO has the ability and 
commitment to assign special reviews to the Acquisition Oversight Team 
and has done so recently with respect to the coordination of the 
updated set of Acquisition Documentation including an updated Program 
Baseline and Acquisition Plan. The Team has recently reviewed the 
Acquisition Plan for the Fast Response Cutter (FRC) B-Class and has 
submitted numerous comments on the draft plan. This plan provides 
evidence of the changes that have taken place in the Deepwater program 
in the past several months as it marks the departure from using Systems 
Integrator to acquire a major Deepwater Asset. DHS recently issued an 
Acquisition Decision Memorandum laying out a variety of new tasks 
requiring the Coast Guard to submit for review and approval numerous 
plans and estimates relating to the acquisition of the National 
Security Cutters (NSC) and the Fast Response Cutters (FRC) in the near 
term. The Department has placed limits on the Coast Guard's contracting 
authority pending the receipt and approval of these documents. 
Additionally, a longer term plan has been agreed upon between the CPO 
Acquisition Oversight Team and the Deepwater program concerning the 
consolidation and alignment of all critical program documentation, 
including a comprehensive update to the Program Acquisition Plan, 
Implementation Plans and Acquisition Program Baseline.

    Question 53.: How will you achieve the balance between procuring 
the highest quality equipment, while ensuring procurements are cost-
effective to protect taxpayer dollars?
    Response: High quality will, in the long run, yield the lowest 
overall cost and our goal in acquisition and contracting for complex 
systems is to seek the ``best value'' solution, considering price, 
quality, and other factors. When the mission becomes the placement of a 
contract in the shortest possible timeframe and at the lowest apparent 
cost, both quality and cost will suffer. The balance is achieved by 
carefully considering not just the instant contract cost, but the life-
cycle costs as well. This requires that the requirements be fully 
vetted and considered before soliciting industry and that industry 
response in the competitive marketplace be thoroughly and carefully 
considered before making an acquisition decision. At the bottom line, 
this process, for major systems, requires a very experienced set of 
professionals from engineering, logistics, and business disciplines 
working as a team with operators to plan, evaluate and negotiate a 
complex contract with acknowledged risks and a fair and equitable 
approach to managing those risks, including the schedule, the price to 
be paid, and the way the contract will be administered. Those are the 
keys to providing the best quality product to the operators at the best 
overall price to the nation.

    In one of its Deepwater reports on the National Security Cutter, 
the Inspector General indicated his office ``encountered resistance'' 
from the Coast Guard and the contractor during the OIG's review of the 
structural design and performance issues related to this vessel. In a 
rare public rebuke, the Inspector General wrote that ``such behavior by 
an auditee is contrary to the Inspector General Act. . .and is 
inconsistent with the intent of DHS Management Directive[s].''
    Question 54.: Are you aware of the problems the Inspector General 
indicated he had in obtaining information from the Coast Guard on the 
National Security Cutter?
    Question 55: What steps are being taken to improve the Coast 
Guard's responses to the Inspector General on reviews of Deepwater and 
other programs?
    Response: The Coast Guard enjoys an ongoing positive relationship 
with the OIG. This is evidenced by the OIG's comments in the February 
9, 2007 123-foot Patrol Boat Audit, which stated that ``The Coast Guard 
was responsive to all of our requests for interviews, briefings, 
information and documentation requests associated with our review.''
    With respect to the audit of the Deepwater program and the National 
Security Cutter audit, it is my understanding that once senior Coast 
Guard officials were made aware of the underlying issues, the matter 
was quickly resolved with the OIG. The Coast Guard and IG established a 
principled framework by which there was mutual cooperation. In fact, 
the IG has stated that he has had no other concerns regarding this 
issue and now considers this example to be an area of successful 
accommodation and cooperation. Senior Department officials are 
continuing their ongoing dialogue with the OIG to improve information 
and ensure that the IG obtains information in a timely manner.

    The Inspector General provided to the Office of General Counsel in 
July 2006 a draft memo that the Secretary could send to DHS employees 
highlighting the importance of cooperating with Inspector General 
reviews. Apparently, the memo was never sent.
    Question 56.: Have you seen the draft memo? If so, what are your 
thoughts regarding its contents?
    Response: Yes. I do not agree with every proposition in the draft 
memorandum, including the strict prohibition on any review of documents 
produced to the IG, and on any assistance during witness interviews.

    Question 57.: Do you believe it would be helpful if the Secretary 
sent this or a similar memo to all employees underscoring the 
importance of cooperating with Inspector General and GAO reviews?
    Response: The draft memorandum has served as one of the bases for 
discussion on the proper way to communicate the Department's 
expectations regarding IG access to DHS's employees. That discussion is 
ongoing. We are currently looking at various means of communicating 
improved guidance to DHS employees to enhance cooperation with the 
Inspector General and the GAO.

    The Department of Homeland Security handles a wide range of 
sensitive and classified information.
    Question 58.: What specific safeguards does the Department have in 
place when classified material is requested by GAO or the Inspector 
General?
    Response: The Department is very diligent about taking proper steps 
to ensure the proper marking and handling procedures are implemented 
with respect to classified national security information. For example, 
Management Directive 0810.1 instructs Department personnel to advise 
the OIG when providing classified information, and Management Directive 
0820 requires DHS employees to consult with appropriate officials when 
the Department intends to provide classified information to the GAO, so 
that they can be clearly notified as well.

    Question 59.: What specific safeguards are in place when personal 
information that may be protected by the Privacy Act is requested by 
GAO or the Inspector General?
    Response: The Department is similarly vigilant about the protection 
of personal privacy information. In such instances, the Department 
identifies the sensitive information and notifies the GAO and OIG that 
appropriate protections and safeguards should be followed. We aim to be 
extremely careful about the disclosure of such sensitive personal 
information.
    If a GAO request for information involves potential access to 
sensitive information on the checklist, e.g., personal Privacy Act 
protected information, the GAO coordinator for the Component possessing 
the information shall ensure the assistance of counsel is sought within 
that Component to ensure any legal issues are considered. In addition, 
the GAO Agency Protocols, GAO-05-35G, provides that GAO will protect 
information, including personal information, to the same degree it 
would be protected at the Federal department.

                                 <all>

</pre></body></html>
